<html>
<title> - LEGISLATIVE HEARING ON H.R. 4888, TO REVISE THE FOREST SERVICE RECREATION RESIDENCE PROGRAM AS IT APPLIES TO UNITS OF THE NATIONAL FOREST SYSTEM DERIVED FROM THE PUBLIC DOMAIN BY IMPLEMENTING A SIMPLE, EQUITABLE, AND PREDICTABLE PROCEDURE FOR DETERMINING CABIN USER FEES, AND FOR OTHER PURPOSES. (CABIN FEE ACT OF 2010)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                              H.R. 4888,
                         CABIN FEE ACT OF 2010

=======================================================================

                           LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 22, 2010

                               __________

                           Serial No. 111-51

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
56-090 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
George Miller, California            Robert J. Wittman, Virginia
Edward J. Markey, Massachusetts      Paul C. Broun, Georgia
Peter A. DeFazio, Oregon             John Fleming, Louisiana
Maurice D. Hinchey, New York         Mike Coffman, Colorado
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Cynthia M. Lummis, Wyoming
Diana DeGette, Colorado              Tom McClintock, California
Ron Kind, Wisconsin                  Bill Cassidy, Louisiana
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Vacancy

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
Vacancy






                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 22, 2010.........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     1
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, Prepared statement of........    10

Statement of Witnesses:
    Almy, Richard D., Cabin Owner, Seattle, Washington...........    38
        Prepared statement of....................................    40
    Anderson, Geoffrey, President, National Forest Homeowners, 
      Lincoln, California........................................    24
        Prepared statement of....................................    26
    Bailey, Peter D., Director, National Forest Homeowners, 
      Tacoma, Washington.........................................    53
        Prepared statement of....................................    54
    Barile, Maureen E., Cabin Owner, Fresno, California..........    64
        Prepared statement of....................................    66
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................     3
        Prepared statement of....................................     4

Additional materials supplied:
    List of information retained in the Committee's official 
      files......................................................    23


 
    LEGISLATIVE HEARING ON H.R. 4888, TO REVISE THE FOREST SERVICE 
  RECREATION RESIDENCE PROGRAM AS IT APPLIES TO UNITS OF THE NATIONAL 
FOREST SYSTEM DERIVED FROM THE PUBLIC DOMAIN BY IMPLEMENTING A SIMPLE, 
 EQUITABLE, AND PREDICTABLE PROCEDURE FOR DETERMINING CABIN USER FEES, 
            AND FOR OTHER PURPOSES. (CABIN FEE ACT OF 2010)

                              ----------                              


                        Thursday, April 22, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul Grijalva 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Kildee, Napolitano, 
DeFazio, Inslee, Hastings, Lummis, and McClintock

 STATEMENT OF THE HONORABLE RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order. The subject of this 
hearing is H.R. 4888, introduced by the Ranking Member, Mr. 
Hastings, of the Committee.
    I have an opening statement that I will submit for the 
record. Mr. Hastings, any comments?
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    Today we will receive testimony on H.R. 4888, the Cabin Fee Act of 
2010. The bill addresses a program that the Forest Service has 
administered since 1915. The program was so successful that families 
have passed those cabins down from generation to generation, developing 
strong local partnerships with the Forest Service.
    However, the Recreation Residence Program has come before Congress 
repeatedly due to concerns raised by cabin owners. Just about 10 years 
ago, we passed the Cabin User Fee Fairness Act, known as CUFFA, to 
address the concerns of cabin owners who were upset about rising fees 
and an unfair appraisal process. Now, we are hearing about similar 
issues once again. It is my hope that we will be able to find a 
solution that solves these problems once and for all.
    As always, we very much appreciate the time and effort put forth by 
our witnesses and thank them for joining us today. With that said, I'd 
now like to turn to Ranking Member Bishop for any opening statement he 
may have.
                                 ______
                                 

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Mr. Chairman, thank you very much, and thank 
you for holding a hearing on this bill. It is a bill that I 
know is critically important to the 14,000 Americans that own 
cabins in our national forests. And unless we act on this 
issue, many of those owners may be forced to abandon those 
cabins that have been in their families for many years.
    And I also want to thank Forest Service Chief Tidwell, with 
whom I met last week, and the Deputy Chief, who is here to 
testify, for their willingness for the Forest Service to work 
with us to find a legislative solution to this problem.
    The fee schedule spelled out in my bill was crafted to be 
balanced and fair to both the cabin owners and the Treasury. 
And I am more than willing to consider additional proposals, as 
long as they provide a simple, predictable system that does not 
result in fee increases that are beyond the reach of average 
Americans. I think that should be the goal for all of us.
    A number of my constituents are cabin owners, and I 
appreciate the input that I have received from them, along with 
cabin owners throughout the country. They worked together, and 
they brought this issue to our attention.
    Many of the private cabins on Forest Service land are 
simple, rustic structures. Many were built in the last century 
by grandparents of the current owners, and they are passed 
down, of course, from generation to generation.
    Although there may be a few that are large and showy, the 
overwhelming majority of these cabins are modest family 
retreats. And the purpose of this bill is to keep the fees 
affordable for these people, who are average Americans, as I 
mentioned: factory workers, retirees, teachers. But, of course, 
that won't happen unless we address this problem.
    The cabin owners affected by this bill currently are 
charged an annual fee for the use of the land on which their 
cabin sits. They don't get ownership rights to the land; they 
have only a temporary and highly restrictive use permit. So 
basically what they have is just the footprint for their cabin.
    Because of the limited-use permit, it is not comparable to 
the rights acquired when someone owns property in fee simple. 
It has proven impossible under current law to establish what I 
consider to be a fair process for setting the fees charged to 
these cabin owners; thus, the result of this legislation that I 
introduced.
    There is a story in my state where the Seattle Times talked 
about a family in Lake Wenatchee, which is in my district, 
where their fee schedule increased over 1,000 percent, from 
$1400 to $17,000. Well, that is obviously untenable, and fee 
increases like that, frankly, make it impossible for the cabin 
owner to even sell their property. And we simply don't want to 
do that. We want to correct that in a way that, I think, is 
equitable to all.
    When the Forest Service established this policy nearly a 
century ago, they were trying to promote outdoor recreation. We 
want to continue that. Our national forests are multiple-use 
areas. They ought to be. Cabins on that land is part of that.
    So Mr. Chairman, once again, thank you very much for 
scheduling this hearing. And I want to thank again Mr. Tidwell 
for working with us, and hopefully we can find a solution so 
this will be predictable in the future.
    And with that, I yield back my time.
    Mr. Grijalva. Thank you very much, sir. Let me ask the 
Ranking Member of the Subcommittee, Mr. Bishop, if he has any 
comments.
    Mr. Bishop. No, thank you.
    Mr. Grijalva. Thank you. Let us begin with our first 
panelist, Mr. Joel Holtrop, Deputy Chief, National Forest 
Service, U.S. Forest Service. Thank you, sir, and I look 
forward to your comments.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
                  SYSTEM, U.S. FOREST SERVICE

    Mr. Holtrop. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
provide the Department's view of the Cabin Fee Act of 2010.
    We have provided written testimony for the record, and I 
would like to focus my remarks this morning on the benefits and 
the challenges of this bill.
    First of all, the benefits. Clearly, reduced appraisal 
costs for the Forest Service, and reduced administrative burden 
for the Forest Service. And that is a significant advantage of 
this bill.
    There is also, as Representative Hastings mentioned, a 
certainty for cabin owners is a key positive aspect of this 
bill. And we recognize those, and do look forward to continuing 
to work with you to come up with a solution that also addresses 
some of the concerns that I will mention in a moment, as well.
    And I also want to express my appreciation for the 
financial burdens that some cabin owners may face as a result 
of the implementation of the Cabin User Fee Fairness Act of 
2000 that Congress passed.
    And I want to acknowledge our appreciation to the cabin 
owners, as well. They do bring lots of benefits to the National 
Forest System. They bring benefits such as volunteer services. 
They bring benefits such as economic benefits to local 
communities. And they bring benefits of connecting people to 
their natural world, and from generation to generation. Those 
benefits are considerable; they are important to us as an 
agency, and to us as a society; and we appreciate that very 
much.
    However, I also want Congress to understand that without a 
fee system that approximates market value, we will continue to 
see large profits from the sale of cabins, where cabin owners 
are in reality selling the value of the underlying lot. And we, 
the American people, own these lots, and not the cabin owners, 
as has already been mentioned.
    We do welcome the opportunity to work with Congress to 
develop a bill that is fair to cabin owners, the taxpayer, to 
users of the national forests, and can be administered without 
undue burden.
    I would like to just briefly mention five aspects of the 
bill that we have either concerns or suggestions about.
    One is we would like to create one fee system for the 
entire National Forest System, not a fee system just for that 
portion of the National Forest System that has been derived 
from the public domain in another fee system for acquired 
lands.
    Second, we would like to have the consideration of perhaps 
increasing the fee amounts within each of the categories that 
are in the bill, as well as maybe adding to the numbers of 
categories in the bill, in order to better reflect markets. If 
fees, again, are below market value, cabin owners will be 
selling National Forest System lands when they sell their 
cabin.
    We would like to consider the elimination of the transfer 
fee for a couple of reasons. One, it would be administratively 
difficult for us to track the sales, and could be adding to a 
cumbersome administrative process.
    And, third, it also assumes that there is a value in the 
sale beyond the value of the cabin itself in the transfer fee. 
And again, if the fees approximate market values, then we would 
not have to be worrying about the transfer fee.
    I also would like to recognize and understand the 
administrative cost of administering this program. As 
Representative Hastings said, there are over 14,000 cabin 
owners, and we recognize that those cabin owners visit the 
forests many times in a year, and visit the forests with 
friends and family. So there are maybe as many as five million 
visitors that are associated with the cabin users.
    The National Forest System accommodates 175 million visits 
a year, and the cost of us administering the Cabin User Program 
is over 5 percent of our recreation budget. In the State of 
California it is over 15 percent of our recreation budget. And 
on the El Dorado National Forest alone, it is one third of our 
recreation budget. The El Dorado is in California.
    Fifth, I would like to recognize and understand the need 
for us to study the management of a very limited number of 
these recreation parcels or groups of parcels that may have 
lost their national forest character over time because of their 
proximity to neighboring subdivisions on private land, or for 
other reasons.
    And again, let me express there are certain advantages to 
this bill, such as reduced appraisal costs being a primary one, 
and certainty for the cabin owner another. And we do look 
forward to continuing to work with the Committee on adjusting 
to the concerns that I just raised, and some other technical 
changes that we would like to discuss.
    And I want to work with the Committee to develop a bill 
that is fair to the cabin owners, that is fair to the American 
people whose lands these cabins are on, and does not cause an 
undue burden for either the Forest Service or for the cabin 
owners.
    This concludes my statement. I will be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]

   Statement of Joel Holtrop, Deputy Chief, National Forest System, 
          U.S. Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. 4888, the Cabin Fee Act of 2010. The 
Department appreciates the over 14,000 cabin owners across the country 
and the recreational experiences they enjoy on the National Forests and 
Grasslands.
    H.R. 4888 would revise the procedures for determining the amount an 
owner of a cabin on the National Forests must pay to lease the 
underlying public property. The Department appreciates the financial 
burdens that some current cabin owners may face as a result of the 
Cabin User Fee Fairness Act of 2000 (CUFFA). However, H.R. 4888 
presents challenges that I will discuss in further detail. The 
Department welcomes the opportunity to work with Congress to create a 
bill that is fair to cabin owners, other users of the National Forests, 
and the taxpayer, and that can be administered without undue burden on 
the agency or cabin owners.
    The bill would replace CUFFA on National Forest System lands 
reserved from the public domain. It would create five payment tiers, or 
categories and provide for an additional payment on the sale or 
transfer of the cabin. It would require the agency to place cabins in 
five categories utilizing appraisals that would be in place at the time 
of enactment. CUFFA would remain in place for cabins on acquired 
National Forest System lands.
    Before describing the challenges of this bill, it is important to 
consider the history of this program. In the early part of the 
twentieth century, the Forest Service began introducing Americans to 
the beauty and grandeur of their National Forests. One way to 
accomplish this objective was to permit individuals to build cabins for 
summertime occupancy within the National Forests. Cabin owners were 
permitted to occupy NFS land during the summer months in exchange for a 
fee. In 1915, the agency began to issue permits of up to twenty years 
for occupancy of NFS land. At that time, there was relatively little 
recreational use of the National Forests. Today, the National Forests 
host over 175 million visitors per year. When this recreational cabin 
program began, there was limited interest in building and owning a 
remote cabin on NFS land. Today, similar land at ski resorts, near 
lakes, and remote mountain settings are highly prized, selling for 
prices beyond the means of many Americans. In the early years, fees 
were nominal, but since the 1950's, the Forest Service has been 
mandated to obtain fees approximating market value for the use of NFS 
land. Increasing fees have led to controversy and have resulted in 
enactment of multiple fee moratoriums and caps over the years. CUFFA 
was the latest attempt to achieve an equitable fee for the use of 
National Forest System land.
    CUFFA prescribes parameters for the appraisal process and fees 
under CUFFA are based on five percent of the appraised market value of 
the lot under permit. The agency began the appraisal process pursuant 
to CUFFA in 2007, and will be continuing that effort through 2012. As 
cabin owners received notice of the new fees, some have experienced 
dramatic increases because the old fees were based on appraisals 
completed ten to thirty years ago. In response, Congress included 
appropriations language for FY2010 which limited fee increases to no 
more than 25% of the fee paid in calendar year 2009.
    There are a number of examples of families who have had cabins for 
generations, but are having difficulty paying the new fees. However, 
there are also examples where low annual fees in the past have led to 
significant financial gains when cabin owners have sold their cabins 
for significantly more than the value of the structure, essentially 
benefiting from a lower than market value for their use of public land. 
When this occurs, cabin owners are, in effect, selling the location of 
their cabin, which is owned by the American people. Some cabins have 
sold at a premium price, only to be torn down by the new owner and 
replaced with a new structure.
    Here are our concerns with the bill as written:
Different Fee Systems
        The bill applies to cabins on National Forest System lands 
        reserved from the public domain which is the status of NFS land 
        in much of the western US. However, the National Forest System 
        also consists of lands acquired from other ownerships. Most of 
        the eastern and mid-western National Forests are comprised of 
        acquired lands. We estimate that seven to ten-percent of the 
        estimated 14,000 cabins nationwide would be on a different fee 
        system. To simplify the process and reduce the administrative 
        burden, the Department requests that the same fee system apply 
        to all cabins on all National Forest System lands.
    Fee Amount: Our analyses indicate that many of the proposed fees 
are less than those which would be paid under current law and below 
market value for many of the lots. As previously noted, fees below 
market value can lead to windfall profits when cabins are sold, as the 
sale prices will reflect the value of the locations as well as the 
value of the cabins. When the buyer of a cabin knows he or she will be 
paying market value for the location, prices tend to reflect only the 
value of the structure being conveyed. To reduce the likelihood of 
these profits, the proposed fee schedule should include additional 
tiers or the fees within the tiers of the draft bill should be 
increased. Projections indicate that expected receipts under CUFFA are 
significantly more than that which H.R. 4888 would generate. In 
addition, to reduce the administrative burden of billing or reimbursing 
fees due to changes in the fee estimate, the Department requests that 
appraisals be updated as scheduled and in place prior to implementation 
of any new fee legislation.
    Additional Transfer Fees: H.R. 4888 requires the Department to 
verify the price at which these private cabins are sold and 
subsequently obtain a payment based on a percentage of the sale. The 
Department is concerned about the administrative challenges of 
obtaining this information, which in many localities is not public 
information, and collecting additional fees which creates an additional 
administrative burden.
    Cost of Administration: We appreciate that the bill acknowledges 
the financial burden on the agency. Under CUFFA the Department 
estimates that the annual cost of administering is from $500 to $700 
per cabin plus approximately $1 million per year for appraisals. In 
California the administration of this program accounts for over fifteen 
percent of the total recreation budget. On the El Dorado National 
Forest, one third of the recreation budget is spent administering this 
program. While there are some 14,000 cabin owners, there are 175 
million visitors to the National Forests each year. H.R. 4888 would 
reduce the administrative burden by eliminating the need for 
appraisals. This would increase the availability of funding in the 
recreation budget for the Forest Service to provide a quality 
experience and protect the environment for all who use the National 
Forests.
    Need to study cabin lots that may have lost their National Forest 
character: Over time, occupancy of some ``summer'' cabins has evolved 
into four-season use, particularly those located on the periphery of 
the National Forests. While year-round use remains contrary to agency 
policy, administration of these cabins can become more complex as 
owners desire typical public services found in residential 
subdivisions; such as electric, phone, cable, and sewer. In addition, 
their proximity and similarity to neighboring private subdivisions, 
suggests that some of these lots may have lost their National Forest 
character. The Department would like the opportunity to study this 
issue more carefully and to consider options to more effectively manage 
these areas.
    Technical Changes: Additionally, there are a number of additional 
technical suggestions which we would like to share with the Committee.
    That said we acknowledge that there are advantages to this bill 
from an administrative perspective. It would reduce the agency's 
appraisal costs and it would provide certainty for cabin owners in 
terms of anticipated fees. Again, we welcome the opportunity to work 
with the Committee to develop legislation that is fair to the taxpayer, 
the cabin owner, and other users of the National Forests and 
Grasslands, and can be administered without undue burden on the agency 
or cabin owner
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Mr. Holtrop. Let me, 
back to the cost issue that you mentioned in one of the five 
areas that you felt needed change or consideration.
    First of all, how much does it currently cost the Forest 
Service to administer the residency program? And when CUFFA is 
fully administered, can you tell us approximately how much 
money the Forest Service expects the program to generate?
    Mr. Holtrop. Yes. The answer to the first question is, we 
estimate an approximate cost of between $500 and $700 per cabin 
per year for us to administer the program. And at 14,000 
cabins, that is between $7 and $10 million a year.
    And then, in addition to that, under the Cabin User Fee 
Fairness Act, the appraisal cost is approximately, maybe $10 
million every 10 years, and so maybe another million dollars a 
year for that. So somewhere in the $8 to $11 million-a-year 
range to administer the program.
    Under CUFFA, our anticipated revenues that the program 
would generate through the Treasury would be between $40 and 
$45 million. That is based simply on, we have, we have already 
done the appraisals on approximately 8,000 of the 14,000 
residences. If the same average value amount were in place for 
the remaining 6,000, that would add up to an annual income of 
around $40 to $45 million.
    Mr. Grijalva. And if the Forest Service is opposed to an 
additional transfer fee, how do you recapture value? How would 
the Agency, what would you recommend, how are we capturing 
value if there is opposition to the transfer fee?
    Mr. Holtrop. I think the way for us to capture value is to 
establish a fair market value, establish the percentage of that 
fair market value, which under CUFFA is 5 percent, which was 
established, and charge a fee for the permits that approximates 
market value. And that should generate the types of funds that 
are appropriate.
    Mr. Grijalva. Mr. Hastings pointed out the one example of 
the 1,000 percent fee increase. About what percentage of the 
cabin fees right now are more than $6,000 a year?
    Mr. Holtrop. I do have a chart that shows. And again, this 
is based on the approximately 8,000 of the cabins that have 
been appraised under CUFFA to date.
    Those that are, what was the question, over $6,000?
    Mr. Grijalva. Yes. What percentage?
    Mr. Holtrop. Those that are over $6,000 is approximately 10 
percent.
    Mr. Grijalva. OK, thank you. Mr. Bishop.
    Mr. Bishop. Can I yield to Mr. Hastings first?
    Mr. Grijalva. OK. Mr. Hastings.
    Mr. Hastings. Thank you. And Chief Holtrop, thank you for 
your testimony.
    I just wanted to clarify. I am inferring from your 
testimony that you don't necessarily, you know, oppose the fee 
structure. But one of the concerns is, my words, the revenue 
neutrality. In other words, you don't want it to cost any more. 
If we can figure out a way, with this fee, to make it revenue-
neutral, that would be a win-win for both sides. Is that 
essentially correct?
    Mr. Holtrop. That is correct. But I am also interested in 
having the fee structure represent a fair market value.
    Mr. Hastings. I understand that. And you are going through 
that process. You have what, roughly three fourths or just 
about three fourths of the appraisals done?
    Mr. Holtrop. Sixty percent, approximately.
    Mr. Hastings. Sixty percent, roughly, OK. Just a question. 
With the real estate market going down, have you seen a change 
in the appraisals here, the current appraisals compared to, 
say, ones that were done a year or so ago?
    Mr. Holtrop. I would expect that there is some reflection 
of that, over time.
    Mr. Hastings. OK. Well, that is going to be the challenge, 
is trying to figure that out. Because you have to have a 
starting point. And once you have a starting point, I think 
that everything hopefully, at least with the idea that we had 
with this, the tiered system, will, in the future, level itself 
out, you know, with sales and so forth. And we can work with 
you on that.
    Mr. Holtrop. Thank you. And I also think having a starting 
point that is, that is fair and makes sense. And right now, 
those cabins that have not been appraised under CUFFA, some of 
those appraisals go back to the early 1980s. And so that is one 
of the technical corrections that we want to work with you on, 
as to how to make sure that we don't have a tier system that is 
based, on some cases, on a value that is a couple of decades or 
more old, and some that are based on values that are a couple 
years old.
    Mr. Hastings. Yes, I agree with you. But I will make a 
prediction that when we go through that process and finally 
come up with something, there will be some that will be upset.
    Mr. Holtrop. That is probably a very safe assumption.
    Mr. Hastings. Grace just said that is not going to be the 
case, so I hope that is good.
    And finally, I just want to ask this. The Forest Service 
has no intention of shutting down this program at all; that was 
never the intention.
    Mr. Holtrop. That is absolutely correct.
    Mr. Hastings. OK.
    Mr. Holtrop. We value this program. Like I mentioned, we 
value the volunteer services that the cabin owners provide for 
us in the locations of the cabins, and beyond those locations. 
We value the economic benefits that they bring to communities. 
And we value the way that they are, that is one of the ways 
that the National Forest System is helping the American public 
become connected to their natural world. We value that.
    There are some of the cabin lots and combinations of lots 
that may have lost their national forest character, and we want 
to look at whether there is some appropriate other way of 
dealing with that. But that in no means is indicative of a 
desire to do away with the program.
    Mr. Hastings. Good. Well, I appreciate that. I just wanted 
to get that on the record so we are sure. Because as I 
mentioned in my opening remarks, this is nearly a century-old 
program. And clearly, at least hearing from my constituency, it 
is a program of those that have those cabins, and the fact that 
they are passed down, many of them, from generation to 
generation, it certainly demonstrates that there is some value 
to that. But I just wanted to get to clarify that.
    Thank you very much. I appreciate your being here.
    Mr. Holtrop. Thank you.
    Mr. Hastings. I yield back.
    Mr. Grijalva. Thank you. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And I am listening 
with a great interest.
    What is the number of cabins that you normally have leased 
out, roughly?
    Mr. Holtrop. About 14,000 on the National Forest System as 
a whole.
    Mrs. Napolitano. Fourteen thousand. Of those six are over 
the 10 percent of that 6,000?
    Mr. Holtrop. Approximately 10 percent of those 14,000 would 
likely be paying an annual fee of $6,000 or more per year. That 
is based on the 8,000 that we have appraised to date.
    Mrs. Napolitano. A lot of these--and I am listening to Doc 
Hastings--indicated that a lot of these are handed down 
generation to generation. Are they grandfathered in terms of 
being able to pay? Or is this a standard fee that you impose 
based on location, based on area, whatever?
    Mr. Holtrop. Yes, that is an excellent question. Ever since 
the 1950s we have been required to be charging for the permit, 
and it is based on an appraisal of the land value.
    Mrs. Napolitano. OK.
    Mr. Holtrop. And so we are, we appraise the land. We 
contract with certified appraisers who do the appraisal process 
of the land.
    And what CUFFA accomplished in 2000 was updating an 
appraisal process. And up until we started implementing the 
appraisals under CUFFA, the fees were being based on appraisals 
that were done in the 1980s, to a large extent.
    And so now, with the new appraisals, in many cases, of 
course, the fees are going up, and in some cases they are going 
up dramatically.
    Mrs. Napolitano. Then none of these are grandfathered in 
terms of payment of the lease?
    Mr. Holtrop. They are passed on, the permit is passed on 
from family to family, generation to generation.
    Mrs. Napolitano. But not the amount paid for the lease.
    Mr. Holtrop. But the fee is something that we----
    Mrs. Napolitano. Is standard.
    Mr. Holtrop.--determine based on the current law of the 
land.
    Mrs. Napolitano. OK. I understand the upkeep and the 
maintenance is up to the lessor. I mean, the lessee. Are any of 
those being checked to ensure that they are maintained at least 
to some degree of viability, in case of fire or--you 
understand.
    Mr. Holtrop. Yes, I do. That is a condition of the permit, 
and that is part of the cost of administering the program that, 
in answer to the Chairman's question, I was talking about.
    We approximate between $500 and $700 per year per cabin to 
administer the program. Part of that administration is visiting 
the cabin, checking on the compliance with things.
    Mrs. Napolitano. How often?
    Mr. Holtrop. Pardon me?
    Mrs. Napolitano. How often?
    Mr. Holtrop. Well, it depends on, it depends. It is 
location-specific. We generally have an expectation that at 
least once a year a Forest Service officer will visit a cabin 
to check on it. Whether that is accomplished in all cases, I am 
unable to say for sure. But in many cases, I think it happens 
far more often.
    It is somewhat dependent upon whether the owner of the 
cabin is proposing some adjustment, whether they want to add a 
deck or upgrade a driveway or something like that. That 
requires far more visits than somebody who is just, that is 
just maintaining the status quo over time.
    Mrs. Napolitano. Now, are these individual grandfathered 
residents of those cabins able to sublease to others that are 
not descendants?
    Mr. Holtrop. No.
    Mrs. Napolitano. Sublet? Rent?
    Mr. Holtrop. There is some limited amount of----
    Voice. Depending on the region, there is some ability to, 
in the short term----
    Mr. Holtrop. There is some limited short-term opportunity 
to do some subleasing. But generally, that is not the purpose 
of the----
    Mrs. Napolitano. Do you have a percentage, approximate 
percentage, of those? No?
    Mr. Holtrop. I certainly don't. And I don't think we can 
provide that right now, but I would be happy to look into that 
and get you an answer.
    Mrs. Napolitano. Right. Because if they are subleasing, 
they are asking for more money than they are paying.
    Mr. Holtrop. I don't have information to either deny or 
agree with that. And I think it is a fairly limited----
    Mrs. Napolitano. It would be nice to know, Mr. Chair.
    Mr. Holtrop. I will get you the information.
    Mrs. Napolitano. Thank you so very much. Then, I am just 
barely--how is the revenue currently used? And what adjustments 
would have to be made if this is enacted and costing the 
program to generate the $20 million less?
    Mr. Holtrop. If the question----
    Mrs. Napolitano. The revenue.
    Mr. Holtrop. It is a question of the fees from CUFFA?
    Mrs. Napolitano. Right.
    Mr. Holtrop. The fees from CUFFA go to the Treasury.
    Mrs. Napolitano. OK. Would that cause any problems for 
the--well, then you get your revenue from the Treasury.
    Mr. Holtrop. Yes, we get it through Appropriations.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. Thank you, I appreciate it. I think the hearing 
so far has--first of all, may I ask unanimous consent to have a 
statement from Congresswoman McMorris Rodgers submitted to the 
record?
    Mr. Grijalva. Without objection. Thank you.
    [The prepared statement of Mrs. McMorris Rodgers follows:]

          Statement of The Honorable Cathy McMorris Rodgers, 
       a Representative in Congress from the State of Washington

    I would like to thank the Ranking Member, Mr. Hastings, for his 
work on this issue. When the U.S. Forest Service's Recreation Residence 
program was established almost 100 years ago (1915), it was intended to 
allow American families to enjoy our nation's treasures for years to 
come. In fact, there are more than 14,000 cabin owners from all walks 
of life enjoying our national forests today. Yet, many of them face the 
real possibility of having to sell or abandon their cabins because of 
unpredictable fee increases. H.R. 4888 will bring stability to the 
appraisal process and ultimately to the calculation of annual fees for 
these cabin owners.
    Yet, there is a related issue that is not addressed by H.R. 4888 
and that is the calculation of fees for cabin owners leasing land from 
the Bureau of Reclamation. Similar to the disparity in cabin fee 
increases on forest service land, many cabin owners on reclamation land 
are facing steep fee increases. For example, in Eastern Washington, 
cabin owners on Lake Conconully have been subjected to what seems to be 
discretionary fee increases over the years, with fees rising from 
approximately $700 to anywhere between $1,800 and $3,300 annually. For 
many of the older fixed income folks, these increases will be 
devastating.
    Of particular concern is the lack of uniformity in calculating 
fees. For example, the Bureau of Reclamation manages approximately 500-
600 cabins in 10-15 sites around the west. It appears that these fees 
are calculated using the fair market value of adjoining property. 
However, at Lake Conconully, fees have been calculated using the fair 
market value of adjoining agricultural property. Moreover, in addition 
to the properties specifically managed by the Bureau, the Bureau has 
also entered into an unknown number of agreements that authorize 
entities to manage property. These managing partners in turn rent to 
cabin owners. It is my understanding that these managing partners have 
the ability to enter into their own agreements with cabin owners, 
including setting their own fee structures. The disparity in fee 
calculation across the nation is concerning.
    I would like to work with the Ranking Member to address this fee 
disparity on reclamation land as H.R. 4888 moves forward.
                                 ______
                                 
    Mr. Bishop. Thank you very much. I think there are two 
things I have learned so far. Number one is, I am grateful my 
in-laws have a cabin, even though I don't use it very much; and 
I am grateful they did it on private land.
    Number two, I am grateful I was not----
    [Laughter.]
    Mr. Bishop. I am grateful I was not here when CUFFA was 
passed, so I don't have to bear that burden.
    I would like to ask you for some documents. Not that you 
have any I want, it is just, it is tradition. So if you can get 
me a document some time, that would be kind.
    Mr. Holtrop. I would be happy to oblige.
    Mr. Bishop. All right. Let me ask two serious questions, 
though, if I could.
    You stated that the administrative cost was $500 to $700 
per cabin. Does that include the appraisal cost, or is that 
outside of the other appraisal cost?
    Mr. Holtrop. That was just the yearly administration. It 
does not include the appraisal cost.
    Mr. Bishop. So the appraisal cost is approximately about 
$10 million every 10 years, under CUFFA. What is it that you do 
that costs $500 to $700 per year per cabin?
    Mr. Holtrop. We visit the cabin on an annual basis. We have 
conversations with the cabin owners about any improvements that 
they want to make to the cabin, to make sure that those 
improvements would continue to be consistent with the permit. 
And the objectives of the permit is largely to make sure that 
the, that the lots, the several lots together will continue to 
have national forest character. And so we are, so it is the on-
the-ground administration of the permit.
    There is the issuing of the permit. There is the issuing of 
the bills for the permits. There is the response to cabin 
owners if they have an objection to the permit fee, et cetera.
    Mr. Bishop. Could I make the assumption that there would be 
administrative cost savings if they were no longer faced with 
constant appraisals, reappraisals, legal challenges? Would 
there be an actual savings that would occur to the Forest 
Service?
    Mr. Holtrop. I do see one of the advantages of this, of the 
proposed bill as reducing our costs for appraisals over time, 
yes.
    Mr. Bishop. And I do appreciate your willingness to work 
with Congressman Hastings to move this forward and work out 
some of these details. I think that is very positive, and I 
appreciate that very much.
    When the appraisal, as you said, it is only on the land; it 
is not on the value of the cabin, per se.
    Mr. Holtrop. That is correct.
    Mr. Bishop. And therefore, you have to come up with a fair 
market value on the land. Can I ask, because appraisal is as 
much art as it is science. And it is based on what has sold in 
other areas very close to it, at least if you are going into 
the private sector and appraising a house.
    What is the base line that you use to make the assumption 
of fair market value when you are dealing with the Forest 
Service, and there is no private sector competition for that 
particular piece of land? How do you make the base assumption 
of what is a fair market value for a piece of property within 
government-owned land?
    Mr. Holtrop. First of all, I am not a land appraiser 
myself. But we do contract with certified land appraisers who, 
the process that they go through, as I understand it, is they 
look for comparable lots that have sold in the area. In some 
cases that is actually quite easy to do, and there are 
comparable lots. And in other places it is----
    Mr. Bishop. Comparable lots within the Forest Service?
    Mr. Holtrop. No. Outside of the Forest Service.
    Mr. Bishop. I am sorry, I interrupted you.
    Mr. Holtrop. Yes, I believe that is correct. I am looking 
at our chief appraiser to make sure I said that correctly.
    Voice. Whatever is the closest you can find to be 
competitive.
    Mr. Bishop. Are there any inside the national forests as 
comps?
    Voice. Well, certainly within the bounds of the national 
parks, yes.
    Mr. Bishop. But private land-only comps. And you feel 
comfortable that is an apples-to-apples comparison? Or is there 
obviously going to be some kind of dissidence between public 
land versus private land?
    Mr. Holtrop. Well, there are, I think I am comfortable that 
it is consistent with current appraisal processes in many 
settings. And I think it is, I think what CUFFA also includes 
is, if there is a dissatisfaction with the appraisal amount, it 
can be appealed, and we will look at an independent appraisal 
other than the one, the appraiser that we contracted with.
    Mr. Bishop. I understand--that is not quite what I asked, 
but I do appreciate this, as my time is running out here, and I 
am not going to extend it. I do appreciate your willingness to 
move forward on this legislation and try and work out some of 
these details.
    Thank you, sir.
    Mr. Grijalva. Thank you. Mr. Costa, any questions?
    Mr. Costa. Yes. Thank you, Mr. Chairman, for allowing me 
the privilege of sitting in with the Subcommittee and the 
Ranking Member. This is an issue that, in various parts of the 
West, I think has significance. And the legislation that I am a 
co-sponsor with, with Doc Hastings, I think is an attempt to 
try to clear up what has been problematic for the 14,000 cabin 
owners in the West who--not just the West actually. There are 
some other parts of the country, as well, that are on public 
lands, that go back to 1915.
    Cabin owners have always I think strived to get back to 
their communities on the forest lands in which their cabins 
are, to help preserve the national forest where their cabins 
lie. And I know that in California, which is what my experience 
is, the cabin owners have provided a great deal of time and 
effort to volunteer activities that include volunteer fire 
departments, museums, and other voluntary efforts to work with 
enhancing the forest that not only they and their families and 
friends use, but that the public uses. Because oftentimes there 
are adjacent campgrounds that the public uses.
    I would like to get in a couple of questions here in my 
time, with our first witness. And we appreciate your input as 
to how we can make this measure work and have the support of 
the Administration.
    The tier system that we have set up in the bill I think 
frankly is something that we can all work on. Does the Forest 
Service see the benefit of maintaining the cabin program? I 
guess that is the first threshold question.
    Mr. Holtrop. Absolutely, we do.
    Mr. Costa. Wonderful. So do I. Are there additional changes 
to the program that you would like to see occur beyond what we 
have outlined in our bill and in your testimony?
    Mr. Holtrop. Just some technical improvements that aren't 
outlined in detail in my testimony. But the improvements, the 
changes that we would like to see are included in the 
testimony.
    Mr. Costa. Could you, and when you provide that technical 
information, also inform us on how the cabin owners can be 
helpful to the Forest Service in making this program work, and 
on an ongoing basis?
    I think that what has happened with the original Act and 
the lack of implementation in an orderly fashion has created a 
whole lot of frustration, and in some cases, deep concern that 
cabins that have been in families for generations are going to 
be lost. These are not palatial homes; these tend to be, at 
least in California, from my experience, rustic and modest, but 
yet a wonderful place to go and to experience the outdoors.
    Mr. Holtrop. I would be happy to continue to work on 
identifying how the owners of these cabins can continue to help 
serve our national forest mission. And I agree with what you 
are saying.
    Mr. Costa. Many of the cabin owners have indicated that as 
the current fee structure moves forward, they will have to look 
to sell or abandon their cabins. Do you have any anticipation 
of permits that the Forest Service believes might be lost under 
the current structure?
    Mr. Holtrop. I don't have any specific information on this. 
I do know that the National Forest Homeowners Association has 
done a survey of their membership, and I would defer to their 
information.
    Mr. Costa. They think 5 percent to 10 percent is what I 
have heard, or more. That could be a loss of $8 to $9 million 
in revenue. So, and the appraisals my colleague and friend from 
Utah I think centered in on. I mean, I think that is a problem, 
and we hope to facilitate this.
    You have indicated in conversations that I have had with 
you that the appraisals are a problem. Is that not the case? 
Time-consuming?
    Mr. Holtrop. The appraisals, they are time-consuming. As 
Mr. Bishop's questions indicated, they are controversial in 
many cases. But I do believe that some establishment of fair 
market value before----
    Mr. Costa. No, we need to do that.
    Mr. Holtrop.--the system is in place----
    Mr. Costa. I don't think there is a disagreement there. If 
we expanded it beyond the five tiers to a sixth and seventh 
tier, do you think that would be more helpful?
    Mr. Holtrop. I do.
    Mr. Costa. You do, OK. What percentage I guess in how we 
meet a happy medium or a comfort zone is, have you given that 
some thought since our last discussion?
    Mr. Holtrop. Yes, we have, both since our last discussion 
and in preparation for this hearing, and in ongoing 
conversations with the National Forest Homeowners Association.
    Mr. Costa. And are you prepared to provide that 
information?
    Mr. Holtrop. Well, I think, if I am understanding the 
question----
    Mr. Costa. Or you did before I got here?
    Mr. Holtrop.--things like additional tiers and 
understanding--maybe you should repeat the question. I might 
not be catching what it is you are asking.
    Mr. Costa. Well, what I am trying to do is to figure out if 
we go from five--my time has run out--but if we go from five 
tiers to six or seven tiers, what the percentage or the 
breakdown, in terms of finding that happy medium, would be.
    Mr. Holtrop. Yes, yes. We have done analysis of what that 
would be, how much, what the value of different tiers in order 
to have something in which the cabin owners would not have to 
pay significantly more than they would under CUFFA.
    Mr. Costa. And make it pay-go neutral on that?
    Mr. Holtrop. We are continuing to work on that. And yes, we 
have some information we can share.
    Mr. Costa. Mr. Chairman, thank you for allowing me the time 
here. And I appreciate working with your Subcommittee, and I 
think this is an opportunity to put together a bipartisan bill 
that can fix this problem.
    Mr. Grijalva. Thank you, sir. Mr. Inslee, any questions?
    Mr. Inslee. Yes, thank you. Do you think the goal of the 
tier, if we go to a tier system for its administrative 
convenience, should the goal be to come as close as possible to 
fair market value? Should that be the goal?
    Mr. Holtrop. I think that ought to be one of the goals, 
yes.
    Mr. Inslee. So right now, under Mr. Hastings's proposal, it 
has tier five, and it would have a fee amount of $4,000 per 
year. How would that relate to fair market value the way this 
is set up?
    Mr. Holtrop. I think in a vast majority of cases, that 
might be sufficient. However, I believe that there are some 
lots in which fair market value is considerably more than 
$4,000, and that is part of the rationale of providing for 
additional tiers that may go up to maybe as much as $6,000.
    Mr. Inslee. So it is just a matter of the more tiers we 
have, the more difficult it will be, but the closer it will be 
to fair market value, I guess.
    Mr. Holtrop. Well, I am not, I think the closer it will be 
to fair market value, and the closer we will be able to be fair 
to each of the cabin owners that somebody is paying similar 
amounts of money for similar right on a similar property.
    Mr. Inslee. So you would suggest consideration of more 
tiers to be closer, then, I take it? Closer to the fair market 
value?
    Mr. Holtrop. That is correct.
    Mr. Inslee. OK. And when you told us that there is a per-
cabin administrative cost of $500 to $700 annually, would that 
continue with this tier system? If we have a tier system, would 
that expense continue?
    Mr. Holtrop. Yes.
    Mr. Inslee. Why?
    Mr. Holtrop. Because that expense is just the annual 
process of managing the program and managing the permits. So it 
is visiting the sites, administering the sites to make sure 
that the cabin is being maintained in a manner that is 
consistent with the permit. It is the billing process. It is 
the issuing of the permits when there is a change in property. 
There is the paperwork that is associated, that we have to do 
in the changing permits, et cetera.
    Mr. Inslee. You actually make annual visits to all these 
cabins?
    Mr. Holtrop. That is, that is our expectation. I can't tell 
you for sure that we do, but you know, many of the cabins are 
in locations in which there are hundreds of them together in 
one subdivision-like area. So in a short number of days you can 
visit numerous cabins, and ensure that there is a lot of 
consistency in a short period of time.
    Again, as I was mentioning earlier, the circumstances are 
different, depending on whether the cabin is just being 
maintained on a regular basis and there are no changes; or if 
there is fuels work that needs to be done on the property 
around the cabin; if the cabin owners are looking at adding a 
deck, or wanting to put a new roof on, and there are aspects of 
those activities that we have to make sure that it is being 
done in a fire-resistant manner and continues to be consistent 
with the national forest character.
    Mr. Inslee. So if you look at the total cost of this 
program compared to total revenues right now, what is the net 
for the Forest Service?
    Mr. Holtrop. Well, the revenues for the program under 
CUFFA, we don't get revenues from the program. That goes to 
the----
    Mr. Inslee. Well, I am talking about the Federal 
government. Is there a net positive for the Federal government 
on this? Considering the expenses associated with the program.
    Mr. Holtrop. Yes, yes. I estimate the cost to administer 
the program on an annual basis to be between $8 and $11 
million. And the benefits that come from, if we were to 
implement CUFFA, the benefits, the value to the Federal 
government would be in the $40 to $45 million range. Based on 
current amount of appraisals done.
    Mr. Inslee. And with the tiers as the bill is currently 
structured, could you suggest, are these tiers, you know, 
basically the average fair market value? Or are they, if you 
add them all up, are they lower than the current fair market 
value, or higher? What is your sort of assessment of the 
numbers?
    Mr. Holtrop. I think at the low end of the tiers, they are 
consistent with fair market value. I think at the high end, 
under CUFFA we have some, as has been mentioned, there are some 
properties that the value of the property is appraised 
considerably higher. There was one example mentioned today 
where the annual fee would be $17,000. There are a few 
anomalies like that.
    The number of fees that are greater than $10,000 is a very, 
very small percentage of the cabins. But there are like 10 
percent of the cabins that would appraise at $6,000 or more on 
an annual fee basis.
    Mr. Inslee. Thank you. And I love the pin you are wearing 
in your lapel there; it looks pretty good this morning.
    Mr. Holtrop. Thank you. Would you like one?
    Mr. Inslee. Happy Earth Day.
    Mr. Holtrop. Thank you.
    Mr. Inslee. Happy Earth Day, and thanks for your work.
    Mr. Holtrop. Thank you very much.
    Mr. Inslee. You know, and I hope that we can pass a Clean 
Energy Bill this year so that we have a few trees left in our 
national forests, and the beetles don't kill them all. I really 
hope that we get that job done. Thanks a lot.
    Mr. Holtrop. Thank you.
    Mr. Grijalva. Thank you, sir. Ms. Lummis, any questions?
    Ms. Lummis. Yes, Mr. Chairman.
    Mr. Grijalva. Thank you.
    Ms. Lummis. It looks to me like the Forest Service and the 
cabin owners might be using two different assumptions to reach 
their conclusions about financial implications of the CUFFA 
bill.
    The cabin owners are assuming that there will be 
abandonment if CUFFA continues unmodified. So my question is 
this. What assumptions on continued cabin ownership did the 
Forest Service use in its projections of receipts under CUFFA?
    Mr. Holtrop. In our projections of receipts, we assumed 
that all the cabins would continue to be under permit. We did 
not assume any abandonment.
    Ms. Lummis. OK, that is helpful. That helps explain some of 
the differences.
    The cabin owners have assumed a loss of 15 percent of total 
cabins if CUFFA is not modified. Does the Forest Service have 
procedures in place to handle cabin abandonment in the event 
that the cabin owners are correct, and 15 percent of those 
cabins would be left? And if so, what is the cost to deal with 
abandonment, to the Forest Service?
    Mr. Holtrop. We do have policies and procedures in place to 
deal with abandonment. I don't know off the top of my head, and 
would be happy to do some checking to be able to answer the 
question about what would be our projected cost of abandonment.
    There are various--if the assumption is, and again, we are 
not aware of any abandonments that have occurred under CUFFA. 
But we have not sought that out. I do defer to the Homeowner 
Association's work with their membership to determine that.
    I think there are, if a family gets into the unfortunate 
circumstance where they can't afford the fee--and again, I 
consider that an unfortunate circumstance, for sure. But if 
that were to be the case, abandonment, of course, is not their 
only option. Selling the cabin is another option. And I do 
recognize that this is a difficult market to sell second homes 
in, both whether those are on the national forest or elsewhere.
    Ms. Lummis. Thank you. Mr. Chairman, one more question. The 
appraisal process takes five to seven years, and must be redone 
every 10 years, according to existing law. It seems to me that 
completion of the appraisal timeline would subject some owners 
to the higher fees, awaiting completion.
    If that is the case, we would still need to issue 
reimbursements. So my question is, how quickly after completion 
of an appraisal is the owner subject to paying the new fee?
    Mr. Holtrop. It is within a year, in the next year. That is 
the fee that we charge, based on the appraisal. Now, but that 
is subject to a couple of opportunities that CUFFA provides the 
cabin owner to appeal and seek an independent appraisal. And so 
that would put that in abeyance while that goes on.
    Ms. Lummis. Would it be possible to simply freeze current 
fees until the appraisal schedule is complete? And then assign 
owners into the appropriate tiers that are outlined in the 
bill?
    Mr. Holtrop. That would require, that would require 
legislation, in my opinion, in order for us to do that. There 
are a couple of aspects of the freezing of that I would be 
concerned about, just to point out.
    One is it would continue the reliance on, for many of the 
cabins, on appraisals that were based back in the 1980s. And at 
some point in time when we have a more recent appraisal that is 
more reflective of the current market value, the longer the 
period of time from when the previous appraisal was to the 
newest appraisal, I think it is just going to exacerbate the 
change in fees over time.
    And then the second aspect of a freeze at this point is 
recognize that approximately 8,000 of the 14,000 lots have been 
appraised under CUFFA. That means 6,000 haven't. And if there 
is a freeze on the current appraisal aspect, we would have some 
that, there would be, we would be freezing in place some 
discrepancy between those cabin owners that have had their 
appraisals already done under CUFFA, and those who have not.
    Ms. Lummis. OK. Mr. Chairman, one more question in this 
round. We have heard from owners in Wyoming that appraisers are 
using comparable lots in out-markets that are quite dissimilar. 
For example, a lot in Cody was compared to a lot near Pinedale. 
And those are very dissimilar in terms of their economic 
situation, one being in a very, very active oil- and gas-
producing area, and the one being in more of a tourist area. 
And then in some areas, an appraiser is difficult to find.
    What is the Forest Service's protocol for establishing 
comparable properties and lots when undertaking an appraisal?
    Mr. Holtrop. I would prefer to provide that answer in 
writing, to make sure that we have all the technical aspects of 
that correct. But in general, our protocol is to look for 
comparable lots that are as similar as possible. As earlier 
questions indicated, there are some difficulties of doing that 
when you are dealing with National Forest System lands and 
looking for comparable locations that are not on the national 
forests.
    But the summary of our protocol is we use the best data 
available. And if, and sometimes that best data available leads 
to a fair market value that is based on lots that clearly are 
very comparable; and sometimes it is less, the best data 
available may not be as good.
    Ms. Lummis. Thank you, Mr. Chairman. And if we have a 
subsequent round, I have some additional questions. Thank you.
    Mr. Grijalva. Mr. Kildee, any comments, questions?
    Mr. Kildee. Just briefly, Mr. Chairman. I believe that we 
have a situation here where we can find an appropriate and 
reasonable fix for this. And I look forward to working with you 
and the Ranking Member to try to arrive at that fix. And I 
yield back my time.
    Mr. Grijalva. Thank you, sir. Mr. McClintock, questions?
    Mr. McClintock. I would just like to offer the observation 
that of all the complaints I have about the Forest Service, the 
rapid escalation of fees vastly, vastly disproportionate to 
inflation or any other rational cost of living scheme has been 
number one.
    I would just like to offer my strong support of this 
measure, on behalf of constituents who are literally being 
priced out of cabins that they have been renting for decades.
    Mr. Grijalva. Thank you. Mr. DeFazio.
    Mr. DeFazio. Just back to the question the gentlelady had 
asked about appraisals. I am just not quite clear.
    These, the cabins are, I guess if you are looking for an 
equivalent in the private sector, not on public lands, it would 
have to be something like a condominium. Because, you know, 
they don't have right to the land, you know, they don't have a 
permanent right. Well, it is not even exactly equivalent to a 
condominium, because they have no permanent right to the 
dwelling. They have very restrictive covenants in terms of use, 
you know, rental, a whole host of things.
    So when you do these, I mean, when they do that appraisal 
and they look for something that is, you know, equivalent, how 
are you doing that? Where are you finding them? Because there 
really isn't anything equivalent.
    Mr. Holtrop. Well, what CUFFA instructed us to do is base 
the appraisal on the value of the land; and that 5 percent is 
below what traditionally would be charged on private land. That 
lower fee was to make up for the differences in the rights of 
the cabin owners on their land. That is one of those areas 
where we have had difficulty in reaching agreement with the 
cabin owners on whether that is an appropriate approach or not. 
But that is our legal interpretation of what CUFFA has required 
us to do. So we don't take the reductions in the appraisal. We 
do in the 5 percent fee, by taking a 5 percent fee.
    Now, there is an exception to that. If we specifically 
close an area because of an area closure for fire purposes or 
whatever, we do reduce the appraisal of the land based on the 
amount of time that the cabin owner is able to use the lot.
    Mr. DeFazio. Well, would that take into account a cabin on 
a high altitude off of an unplowed Forest Service road in the 
wintertime, too?
    Mr. Holtrop. No, no.
    Mr. DeFazio. That doesn't count. So you figure they are 
just going to come in on a snowmobile or something, or ski in.
    Mr. Holtrop. Or snowshoes, snowmobile. Or, you know again, 
as CUFFA instructed, to only charge 5 percent of the appraisal 
value to account for that.
    Mr. DeFazio. Can we go back also to the administrative 
costs? I am really having a struggle with that. I just don't 
see how it could be $500 to $700 per year per dwelling. You 
know, you have specific employees detailed to this program who 
spend, you know, full time doing it? How long would it take to 
look at any individual property or cabin? I mean, if they are 
not remote from one another, one would assume that you could do 
a large number in a day. And I don't think too many of your 
employees are getting paid $500 a day.
    So I am bemused. I mean, is this one of those exercises 
where we assume that you spend 10 percent of your time, or 5 
percent of your time thinking about this program; therefore, 5 
percent of your salary counts as overhead, and 5 percent of, 
you know, all your staff counts as overhead? And so you work 
all the way down in the organization until you actually get to 
the person who does the work, who doesn't get paid all that 
much, and you say oh, well, the costs of this one lease are 
$500 to $700. Is that how it works?
    Mr. Holtrop. No. The costs that I am talking about are the 
direct costs of the administration of the program. There is 
generally--I worked on a ranger district in the Mount Hood 
National Forest many years ago, in which there were several 
hundred recreation residences on that ranger district. We had a 
GS-11 who was pretty much an assistant ranger-level position, 
who was pretty much assigned to working on that program on a 
year-round basis.
    There is not just the site visit and the administration of 
the cabins. When there are several hundred cabin owners, there 
are many of those who want to do improvements to their lot. And 
that requires, under the permit, that requires additional 
interaction. So it can take several days of interactions on a 
specific permit.
    There is also the billing process, and the paperwork 
associated with issuing the permits and the paperwork 
associated with issuing the billings. And then if there are 
concerns or questions about the billings, the visits and the 
telephone calls and the response to the questions on the 
billing.
    Mr. DeFazio. If someone is applying to do improvements, do 
they pay for a permit?
    Mr. Holtrop. For the permit, the permit allows certain, the 
permit with us allows them to do certain improvements. And they 
pay for the permit based on the appraisal of the land.
    Mr. DeFazio. Yes, no. But what I am saying is if I have, 
that is my, that is the routine recurrent cost. If I want to do 
another improvement that requires your approval, just like 
where I live in a city, I have to apply to the city. They send 
out an inspector, and I have to pay a fee that covers, more 
than covers the cost of that person's salary. My city makes 
money on these things, and use it for other bureaucracy.
    So perhaps, you know, you could look at if that is part of 
the problem, then maybe for those who aren't doing or requiring 
more of your time or your staff's time, to actually have them 
pay a fee, just like they would in a comparable situation in a 
county or a city because they want to do an improvement.
    Mr. Holtrop. We don't have the authority to do that at this 
point, but that is one of the solutions. That could be 
something we could do.
    I believe the cabin owners, if they are going to do some 
improvement, there may be in some cases some local government 
fees that they have to pay to the local government for some of 
that. But that is not for, that is not something that comes to 
us.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Ms. Lummis, you had other follow-up 
questions? And let me extend to the other Members, if you have 
follow-up questions, this would be the time.
    Ms. Lummis. Thanks, Mr. Chairman. And I do think Mr. 
DeFazio is on to something, so I want to run with that line of 
questioning.
    County assessors tend to use, at least in my county and 
most, I believe, around the country, a computer-assisted mass-
appraisal process, where they have factors plugged into a 
computerized mass-reappraisal system that would look at square 
footage, quality of construction, market conditions in the 
area, as assisting them in appraising.
    Now, in areas where a Forest Service-approved appraiser may 
not be readily available, so an appraisal that a cabin owner 
disputes might not get a visit from a Forest Service-approved 
reappraiser that is paid for by the cabin owner for quite some 
time, during which time they would be paying a higher fee, 
would it make some sense to adopt some of the same principles 
as a county assessor uses? To use these computer-assisted mass-
appraisal processes.
    Mr. Holtrop. We would certainly be willing to work with you 
to explore that option. I do want to point out that those, the 
examples that you just mentioned were examples around the value 
of the structure, and we are not appraising the value of the 
structure.
    Ms. Lummis. Oh.
    Mr. Holtrop. We are appraising the value of the land.
    Ms. Lummis. Oh. OK. And excuse me for misunderstanding 
that.
    Mr. Holtrop. That is quite all right.
    Ms. Lummis. OK. What are the criteria for an appraiser to 
be an approved Forest Service appraiser?
    Mr. Holtrop. I don't have that information at my 
fingertips, but I can certainly get that for you. But there are 
certainly requirements that they need to be licensed, and that 
they have to be certified by the state in which the appraisal 
is occurring.
    Ms. Lummis. Mr. Chairman, do they have to be an MAI 
appraiser? They don't, OK.
    Mr. Holtrop. No.
    Ms. Lummis. Wouldn't the Cabin Fee Act just eliminate all 
this confusion?
    Mr. Holtrop. The Cabin Fee Act has many advantages, in 
terms of providing certainty of how much the cabin owners would 
be paying on an annual basis over time. It has the advantage of 
reducing the uncertainty and the controversy around the 
appraisal process.
    But there still does need to be some process in which there 
is, before the cabins are put into the various tiers, how you 
establish which tiers they ought to go in, there has to be some 
basis of a fair market value that has to be determined at that 
point.
    So, but over time, I think there would be many advantages 
that would take us out of this. Because you know, 10 years from 
now, under CUFFA, we would be doing this again.
    Ms. Lummis. Mr. Chairman, if you are just appraising the 
land, there is a certain added value, I would think, to the 
exclusivity of the setting, in that, you know, you don't have 
any neighbors because it is Forest Service land. Does that 
factor into these values? Because it is sort of a condition 
precedent. It is on Forest Service land.
    So if you are, in essence, providing a higher value to the 
land because it is so exclusive, and yet by its very nature it 
is exclusive because it is Forest Service land, it is pretty 
circular.
    Mr. Holtrop. Yes. But no, we do not specifically raise the 
appraisal value because it is National Forest System land. What 
we look for are comparable properties that have, for instance, 
if there is, if it is a cabin on National Forest System land, 
and it is pretty isolated by itself without neighbors, we are 
looking for comparable private sites that would be consistent 
with that.
    We have many of our cabin owners that the cabins are 
actually in subdivision-like settings, as well. In those cases 
we are looking for comparable lots on private land that are in 
a comparable setting.
    Ms. Lummis. OK. And Mr. Chairman, thank you for letting me 
ask these questions. This has really cleared up some of my own 
misconceptions, so I appreciate your testimony. Thank you.
    Mr. Holtrop. Thank you.
    Mr. Grijalva. Mr. Costa, you had some follow-up questions?
    Mr. Costa. Yes, thank you. The conundrum that you are in, 
though, in the example that was just stated, because I know a 
number of areas where you have Forest Service land, but you 
have some historical event that occurred in which there is 
private land that is there. And so when you are, and Doc 
Hastings cited a case up in his area, and in Washington we have 
a similar case that I am familiar with where we have 90 acres 
that is isolated private land, where there are condominiums and 
some cabins. And they get fee title to the land, and they 
actually own, they own something. But everything around it is 
Forest Service land.
    So when you are doing a comparable appraisal, it is not 
really comparable in the sense that, because people have fee 
title to the land, they actually built a dwelling, and they own 
it. So I think that is an issue that needs to be reflected 
here.
    I am also pleased that Congressman DeFazio explained that 
some of these are seasonal. I mean, you have maybe six months' 
use of the cabin, realistically, because of the remoteness, the 
snow conditions, and other factors where they are located.
    Getting back to the, I guess bemused was an interesting 
description of how you assess these fees. Because in some of 
the instances I am familiar with, what the Forest Service has 
is an administrative office in the area; they manage the whole 
forest, they manage trails, they manage, they rescue lost 
hikers. They focus on lakes, and they work with Fisheries and 
state and other agencies to plant trout and do all sorts of, 
and maintain the campgrounds. There are just a multitude of 
efforts. And the cabin owners, when they are adjacent in those 
areas, provide value-added in that sense.
    But just as I am familiar with that because in this one 
area it is seasonal, you have in the springtime a meeting with 
the cabin owners. There are two or three hundred cabin owners 
in one area. You guys come down; you have two or three of your 
guys, you have an hour meeting. You have a notice, everybody is 
on the list. These are the rules for this year. On May 30 or 
June 15, everybody has to clean their pine needles from their 
thing.
    I mean, it is a whole, it is not like you are visiting up 
in the cabin, and you are saying OK, well you know, I am 
checking off this. You have the cabin owners down. And this is 
a regular, annual part of the administration. So you are not 
going cabin to cabin for 300 cabins. You have them on the mail 
list, they get on the mail list. You have got emails. I mean, 
there is an association on this track-by-track basis.
    So the $500 to $700 per year administrative cost, it just, 
I guess the line of questioning that Mr. DeFazio was focused on 
I think more accurately reflects what is going on here, as 
opposed to what this is really costing. I guess I am trying to 
get a sense on how you, the way you do this systematically, to 
the degree where you have clusters of cabins located in an 
area. Is it not, is that not the way you deal with these 
administrative issues?
    Mr. Holtrop. It is, it certainly is a way that we deal with 
the administrative issues. And I also want to acknowledge, I 
agree with you that the value that the cabin owners bring to 
the management of the National Forest System.
    But there still is, there is on-site visitation that does 
occur. I think our process does require our administrators of 
the permit process to visit every cabin once a year. There is a 
cost associated with traveling to get to the cabins, et cetera.
    Mr. Costa. Does a visit include just driving by?
    Mr. Holtrop. In those cases in which the cabin has been in 
the current state, and has many years of being in sharp 
compliance with the permit for years, I would expect one of our 
permit administrators to do some prioritizing that that is a 
cabin that I don't have to spend as much time on. But if next 
door there is a cabin in which they are building a deck or 
doing something additional, that is going to take some 
additional work by the administrator.
    I am told we do have a study that lays out the details of 
the cost of administering the cabin program, that we can get a 
copy of it to all of you.
    Mr. Costa. Please submit it to the Subcommittee and to all 
of us. Thank you.
    Mr. Holtrop. OK, I will do that.
    Mr. Grijalva. Any other Members have follow-up questions? 
Mr. DeFazio?
    Mr. DeFazio. Just, well, it is more an observation, though 
you may want to respond. I am just looking at a list of Oregon 
appraisals, and most of them were done in 2007 and 2008, which 
would have been the height of land rush hysteria in my state. 
And you know, I was just meeting with builders yesterday, and 
they were saying well, you can get lots in central Oregon now 
for 20 to 25 cents on the dollar for what they were two years 
ago.
    So I mean, that, you know, most counties, once they have 
done a physical appraisal, they then index that to the market. 
So they will say well, the market went up 5 percent last year; 
we appraised you three years ago; you are going up 5 percent. 
Or in this case, the market went down, you know, substantially; 
we are going to bring you down.
    Do you have anything like that? Or is it just, if you were 
appraised at the height of the market, you are stuck with that?
    Mr. Holtrop. Both CUFFA and the Cabin Fee Act that we are 
considering here today have indicators, and we adjust to the 
market.
    Mr. DeFazio. OK. After the initial appraisal there is----
    Mr. Holtrop. Adjustment.
    Mr. DeFazio. So the numbers I am looking at here, you know, 
which are quite high, are actually going to be adjusted 
downward because of market changes.
    Mr. Holtrop. The amount would be based on, the adjustment 
is based on IGD/DGB? OK. It is the Department of Commerce 
figures that we base the adjustments on.
    Mr. DeFazio. For a subregion? For a forest? I mean, you 
know, we have seen actual, very substantial, you know, second-
home decreases in prices in real estate in, say, central Oregon 
and other parts of Oregon.
    Mr. Holtrop. Right. The legislation, the CUFFA legislation, 
as well as Cabin Fee Act, are both based on the national 
figure. So the concern that you are raising----
    Mr. DeFazio. I would love to know what the national figure 
says about recreation land over the last 24 months. I would be 
very interested. If you could provide that, that would be 
great. Thank you.
    Mr. Holtrop. We will respond.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Grijalva. Any other Members have follow-up questions?
    [No response.]
    Mr. Grijalva. Thank you, sir. Let me invite the next panel 
up.
    [Recess.]
    Mr. Grijalva. Let me welcome the panelists so that we can 
begin. And turn to the Ranking Member, Mr. Bishop.
    Mr. Bishop. Mr. Chairman, I just ask unanimous consent to 
set into the record letters that we have received from cabin 
owners throughout the West.
    Mr. Grijalva. Thank you very much. Without objection.

    [NOTE: The following individuals submitted documents for the 
record, which have been retained in the Committee's official files.]

Cline, Larry A.

Congressional Record (copy), June 16, 2003

Davis, Barry, WY

Fashinell, Thomas R., Owner/Manager, Echo Chalet, Inc.

Howard, Joanne, Board President, Echo Lakes Association

Huber, Charles and Linda, AZ

Johnson, Kenneth C., Cabin Co-Owner, CA

Jossi, Dave, MN

Peterson, Charles, D., CA (Fax)

Prince, Megan, OR

Raben, Debra Dianne, WY

Realtor Summary: Effect of CUFFA permit fees on the Health of the 
        Recreation Residence Program (letters attached)

Shaw, Randy L., OR

Tripathi, Jay, President, Spring Creek Tract Association
                                 ______
                                 
    Mr. Grijalva. Let me welcome our panel, and begin with Mr. 
Anderson, President, National Forest Homeowners Association. 
Welcome, sir, and I look forward to your comments.

  STATEMENT OF GEOFFREY ANDERSON, PRESIDENT, NATIONAL FOREST 
                HOMEOWNERS, LINCOLN, CALIFORNIA

    Mr. Anderson. Thank you for the opportunity. I am Geoff 
Anderson. My family cabin of 50 years is in the Sierra National 
Forest in California.
    I am a cabin owner, and also the President of the National 
Forest Homeowners, which represents recreation residence and 
special-use permittees in 98 of our national forests.
    Since its inception, the cabin program has met the needs of 
the public for recreation opportunities. At present, there are 
14,000 cabins in 25 states under this program of non-exclusive, 
restricted, and permitted use. These are summer cabins, not 
full-time residences.
    This program continues to provide quality family-oriented 
recreation opportunities, a continuing goal of the Forest 
Service, generating substantial revenue per square foot and at 
low impact.
    Today cabins occupy a fraction of a percent of forest 
lands, and generate 5.1 million recreation visitor days each 
year. Cabin owners were encouraged by local forest rangers to 
join the program well into the sixties. Cabin sites were made 
available in primitive, often roadless and remote, areas. Many 
are accessible only a few months out of the year, due to 
weather.
    The original cabin owners were hearty souls. The cabins 
were built by hand, using primitive tools and natural 
materials. Some hauled with the mule-drawn conveyances of those 
days, and some by boat. We constructed our own roads, dealt 
with often severe environments, and provided our own services.
    Historically the cabins worked in partnership with the 
Forest Service. Cabin owners became invested in the forest, and 
as such, had great interest in the forest environment. They 
were often the first responders to forest fires and medical 
emergencies. This was the beginning of the public-private 
relationship that still exists today.
    Today, many of the cabin owners are descendants of the 
original owners. Some are quite elderly. They include veterans, 
teachers, civil servants, small business owners, and the like.
    Cabin ownership may have changed over time, but the 
stewardship and the close ties to the forest environment have 
never changed. Cabin owners and their guests, for example, 
volunteer their time to fire fuels reduction projects and 
rescue services. Educational environmental programs have been 
organized and funded by cabin tracts that benefit the public 
and help maintain healthy forests.
    There are many examples of cabin owner volunteers working 
cooperatively with the Forest Service and many nonprofits, 
church, and youth groups. An elderly cabin owner in Arizona 
hosts docents from the local desert museum every summer. My 
cabin has served as a jumping-off site for numerous scouts 
seeking merit badges on back-country trails. Local businesses, 
state and county governments benefit, too.
    The existence of the local lodge, grocery store, and 
restaurant is often dependent upon cabin owner patronage. 
Resort owners in Huntington Lake, California tell us that if 
the 400-plus permitted cabins disappeared, they would be out of 
business.
    Cabin owners support projects and services which serve 
members of the public beyond just the cabin owners. We pay 
property taxes, access fees, utility and insurance fees, not to 
mention the purchases of staples, improvement and repair items, 
all of which benefit the rural businesses and communities.
    Cabin owners are valuable resources. Secretary Vilsack has 
stated, and I quote, ``It is essential that we reconnect 
Americans across the Nation with the natural resources and 
landscapes that sustain us.''
    Cabin owners, their families and friends are already 
connected. They will continue to play a vital role in the 
health of our rural communities and our national forests, 
furthering the goals of the Forest Service and enhancing public 
services and recreation experiences.
    Mr. Chairman, I fear this valuable public program is being 
threatened. Current cabin owners cannot afford the unreasonably 
high fees, and potential purchasers are unwilling to pay them. 
Such is the dilemma of a widowed cabin owner in the Angeles 
National Forest, whose yearly fee will rise to over $3,600 this 
appraisal cycle. A cabin owner in Wisconsin is struggling with 
a $7,000 yearly fee. Both anticipate additional fee increases 
will drive them from their family cabins. They face making the 
choice between selling the cabin or walking away, leaving them 
with the costly obligation of removing the cabin and restoring 
the site to its natural state.
    One might say well, someone else will pay the fee. 
Declarations from real estate agents from across the country, 
which you were provided today, show that cabin sales are not 
down due to the general economic downturn; they are down 
because potential buyers will not pay the unreasonable fees, 
nor be burdened with even higher uncertain fees in the future 
for the restricted use of a small cabin that they may have 
access to only a few months of the year.
    With such high fees, no one, not even the wealthy, will pay 
these fees. The costs simply outweigh the benefits. At Lake 
Wenatchee, Washington, in 2007, a cabin owner, faced with a 
substantially increased fee, was not able to sell his cabin at 
auction, even with a minimal opening bid.
    Our members support the Cabin Fee Act, and ask you to 
support this legislation. I might add that the particulars of 
this bill and the difficulties with the current fee system will 
now be addressed by Mr. Almy and Mr. Bailey.
    Thank you.
    [The prepared statement of Mr. Anderson follows:]

 Statement of Geoffrey Anderson, President, National Forest Homeowners 
            and Cabin Coalition 2 Steering Committee Member

        History and Benefits of the Recreation Residence Program
Introduction
    I appreciate the opportunity to provide this testimony to the 
Parks, Forests and Public Lands subcommittee on an issue of great 
concern to recreation residence permittees, their friends and their 
families. This testimony has been prepared in conjunction with Mr. Dick 
Almy, who has provided an overview of the problem, and Mr. Pete Bailey, 
who has detailed the solution. This testimony summarizes the long and 
rich history of the Program and the benefits that accrue to the Forest 
lands, the rural communities, the public and participants in the 
Program.
    I am the President of National Forest Homeowners (NFH), which is 
the only national organization solely dedicated to representing all 
holders of special use permits issued by the USDA Forest Service 
pursuant to the Term Permit Act of 1915, 66 USC Section 4971. My wife 
and I hold a special use permit for our summer cabin on the Sierra 
National Forest at Huntington Lake, California.
History of the Recreation Residence Program
    The Recreation Residence Program was arguably the first formal 
effort made by the USDA Forest Service (FS) to provide recreation 
opportunities for the public on National Forest System land, although 
fishing and hunting cabins on these lands date back to the early 1870s, 
well before the establishment in 1891 of the Forest Reserves.
    With the passage of the Organic Administration Act of 1897, Forest 
Reserves were opened to the public with their use regulated by permit. 
However, these permits could be reviewed annually and terminated. Cabin 
owners needed longer tenure to justify the investment in and the 
construction of cabins. The Occupancy Permits Act of March 4th 1915 set 
aside land for the construction of summer homes with multi-year 
occupancy permits.
    Summer cabins have been a part of our nation's forest recreation 
program, under Forest Service policies, ever since. At present there 
are approximately 14,000 cabins nationally in 25 states and Puerto Rico 
under this FS program. At its peak, the Program authorized nearly 
20,000 cabins. More than 5,000 permits have been removed from the 
Program due to land exchanges and loss of structures from natural 
disasters. Many other forest lots originally were designated for 
cabins; however, current USFS policy does not allow them to be 
developed.
    In the early years, the Forest Service supported and actively 
promoted participation in the Cabin Program to encourage public use of 
our National Forests. In 1919 rangers in the Sierra National Forest 
approached frequent campers in the area of recently plotted cabin sites 
and solicited applications for Recreation Residence Permits for a $15 
annual fee and a 99-year lease. Eileen Davis, a current 90-year-old 
permit holder, in a written statement tells of these early days of the 
Cabin Program (statement attached as Exhibit 3A). This was the 
beginning of the public-private relationship that still exists today. 
Forest Service promotional brochures date back to 1918. Interestingly, 
as recently as 1962 Forest Service publications promoted the Program 
and required that the cabins be ``permanent'' structures (``Information 
for Prospective Summer Home Owners'', USFS Intermountain Region 
brochure, 1962). Today, land set aside for this purpose is less than 3/
1000th of one percent of all National Forest System lands. Many cabins 
continue to be owned, maintained, and enjoyed by the fourth and fifth 
generations of the families that built them.
    In the early era, families traveled substantial distances in 
primitive vehicles over uncertain roads in order to build modest cabins 
on roughly quarter-acre forest lots. For many of these tracts, the 
means of access today continues to be primitive and may involve a final 
trek on foot or by boat. Weather in some forests limits access to fewer 
than four months annually. For example, Echo Lakes' tract in 
California's Sierra Nevada, not atypically, has three months of access 
each year. As utilities and infrastructure became available in some of 
these rural areas, cabin owners banded together to provide water 
systems, electricity, fire protection and road and trail maintenance. 
Others still use gas lights, gas or wood stoves for heat and hand-
pumped wells to provide water.
    Many of the cabins were hand built from materials found nearby and 
still display period construction methods. In fact, most cabins were 
built prior to 1960 and many are classified as ``historic'' under the 
National Historic Preservation Act. Most are true ``cabins in the 
woods'' and are not in any way equivalent to vacation homes in resort 
areas (Francis True statement attached as Exhibit 3B).
Nature of Permit Rights and Restrictions
    The cabins may have maintained their historic features; however, 
the rights and responsibilities of cabin owners, as noted in the 
regulations, (last reissued June 2, 1994, now found in the USDA Forest 
Service Manual at 2721.21.33 and Handbook at 2709.22), have evolved. 
Interim directives have placed further limitations on use. A few of 
these limitations are identified below.
    One significant limitation is that the use of the lot is not 
exclusive. The general public can access and utilize the lot at will 
other than the ``footprint'' of the cabin. Most cabin associations 
welcome and encourage other forest visitors, sponsoring interpretive 
trails and information kiosks to foster responsible shared use of tract 
sites, trails and the forest resources that surround the area. Cabin 
tracts can be important buffers between more intensive day uses or 
campgrounds and less intensive uses such as backcountry or wilderness 
areas.
    Permits are limited to a maximum of 20 years. Year-round permanent 
residency is not allowed and use as a rental property is on a limited 
basis needing prior written approval by the local Forest Service 
office, if allowed at all. If an alternative public use for the land is 
determined consistent with the FS management plan, then within a 10-
year notice period, the cabin owner must remove the cabin and restore 
the land to its natural state. If the cabin owner does not comply, the 
Forest Service will remove the cabin and bill the cabin owner for the 
expense. Only if the notice is less than 10 years is the owner entitled 
to compensation.
    Cabin owners are responsible for maintaining their lots, including 
the removal of hazard trees both on and off the lot. Erosion control, 
removal of non-native species, clearance of excess forest understory to 
satisfy fire concerns--all are the cabin owner's responsibility. All 
exterior repairs/alterations must have prior approval from the Forest 
Service, even if required by another governmental agency. At the end of 
a 20-year term, each cabin and lot is evaluated for whether it meets 
the local requirements for a new permit. Sometimes the local rules on 
acceptable structures--down to the color of the cabin--have changed 
since the last permit was issued and burdensome new changes are 
required. Typical forest or regional restrictions include limitations 
on the size of the structure (1,200 square feet in Region 6), the size 
of decks, second floors are not allowed, outbuildings are prohibited 
entirely or limited to one or two at the most, fencing is not allowed, 
landscaping is prohibited, and the color of paint on the cabin, its 
doors and window frames is tightly controlled. It is not uncommon for a 
permit to be issued for one year to complete the required changes.
    Despite the challenges, the Forest Service and cabin owners have 
had a successful long-term relationship, both contributing 
significantly to a program that provides for family-oriented recreation 
and generates revenue for the U.S. Treasury.
Benefits of Cabin Owner Stewardship
    Today, more than ever, the cabin owners and their families and 
friends work in partnership with the Forest Service, volunteering their 
time and labor to help the Forest Service with projects and services 
the general public enjoys. What began as a way in which to encourage 
public use of the National Forests has matured into a valuable resource 
of knowledgeable Americans who help in the management and stewardship 
of those forests. As the Forest Service stated in the Pacific Southwest 
Region's Recreation Residence Assessment (June 10, 2009 and updated 
November 12, 2009): ``Recreation residences provide for unique, family-
oriented experiences that foster stewardship and volunteerism. 
Ownership often spans generations, creating a valuable source of local 
knowledge regarding resource issues.''
    This established partnership can aid in developing the vision and 
direction for our forests that Secretary of Agriculture, Mr. Tom 
Vilsack, has described. He has stated in the USDA Department of 
Agriculture News Release #0383.09, ``It is essential that we reconnect 
Americans across the nation with the natural resources and landscapes 
that sustain us.'' Cabin owners, their families and friends are already 
making these connections and will continue to play a vital role in the 
health of our National Forests.
    In order to better understand how cabins are used and how they 
benefit the forests where they are located, in 2009 National Forest 
Homeowners (NFH) surveyed cabin owners across the U.S. One of the 
sections of the survey addressed the stewardship activities of cabin 
owners. As documented in this survey, cabin owners help in the 
management of the forest areas both in and around their tracts, from 
eradicating non-native species, trail maintenance, river rescue and 
general clean up to aiding the day use and camping public and 
participating in Fire Safe Councils. Further, they work in partnership 
with the Forest Service to provide help in manning informational kiosks 
for campers and day visitors, in some cases after having helped build 
those kiosks. Permittees help with Saturday night presentations at 
amphitheaters they helped construct for audiences made up of local 
campground visitors. They build and staff local museums of the history 
of the areas. Most cabin tracts are located in areas where there are 
other types of recreational uses of the forest; in many instances these 
cabin communities are the first responders to put out campfires left 
burning, help visitors who may be injured or lost, and pick up trash.
    Many cabin owners have been coming to their cabins all of their 
lives. They know about the local environment from personal experience 
and the Forest Service often draws on their knowledge when managing the 
area. One example is the relocation of a parking lot that provides 
access to a wilderness area, based on input from a cabin owner. In 
addition to providing ideas for the relocation, the tract members got 
together and helped replant the affected wetland, which now looks as if 
cars were never there. Wesley Voth, a cabin owner in Oregon at the 
Breitenbush tract in the Willamette National Forest, tells of the 
impact that cabin ownership has had in terms of shaping their lives, 
including their family values and careers (Voth letter attached as 
Exhibit 3C). Wesley shares the lessons learned from spending time at 
the cabin and how their cabin is a ``natural classroom in the forest''. 
This closeness to the land resulted in his father's choice of career. 
Their cabin is a place to share, care for, preserve and teach 
stewardship to his children, just as he learned from his parents and 
grandparents.
    The devastation of recent western wildfires is well-documented. In 
the Huntington Lake basin of the Sierra National Forest in California, 
a fuels reduction project was established involving cabin volunteers, 
the Forest Service, the California Fire Service and local merchants. 
Their mission: to cut and remove dangerous trees and brush that 
threatened large areas of forest. Over a two-year period, using funds 
from the local rural advisory council and the Forest Service and with 
labor from the other partners, substantial areas were thinned or 
cleared. This provided a buffer between the recreation area and the 
Kaiser Wilderness area while also protecting structures, campsites and 
businesses from wildfires. As stated by Christine Oberti, President of 
the Huntington Lake Association..., ``the significant economic and 
cooperative benefit contributions of the Recreation Residence Program 
in conjunction with other volunteer organizations is substantial. If 
the program is priced out of existence, the Forest Service will lose a 
great partner and many auxiliary benefits that make up for the 
reduction in appropriated non-fire funds on our National Forests.''
    At Echo Lakes in El Dorado National Forest near Tahoe, California, 
the Echo Lakes Environment Fund (ELEF) started in 1970 with the 
institution of a recycling program for trash generated by cabin owners 
and the public. The ELEF has performed numerous back country cleanups. 
The ELEF organizes ``walks'' led by various professionals (botanists, 
geologists, nature photographers, star-gazers, etc.) that are open to 
all comers. They have been very active in the education of cabin owners 
and the public on how to live with bears. They also have a very active 
youth education and outreach program that includes fishing derbies, 
log-rolling contests, nature scavenger hunts and other activities. The 
ELEF also provides small grants to students whose research includes the 
Echo Lakes area. These are only a few of the examples of cabin-owner 
led programs that really benefit their communities, the forests and the 
public.
Economic Benefits from Cabins
    The cabin owners also have a major impact beyond their stewardship 
of the forest. The economic impact of the cabin tracts on the 
surrounding communities was also evaluated in the NFH Economic Impact 
Survey, conducted in the Spring of 2009. Expenditures in local 
economies (defined as within 50 miles of the cabins) on food, staples, 
improvements and repairs, recreational activities, and dining out for 
the 'typical' cabin average approximately $7,000 annually. An 
additional $369 per year is given in donations and our volunteer hours 
contribute $303 of value to local communities. Based on these data, we 
estimate that each cabin, on average, injects approximately $7,600 
dollars into the local economy. At the national level, the impact of 
the 14,000 cabins in the program on local economies is over $110 
million annually. In many cases, these expenditures are critical to the 
economic health and viability of the small, rural communities that 
provide products and services to the cabin owners.
    For example, the 400-plus Huntington Lake cabins support the local 
volunteer fire department with money and manpower. In fact, most of the 
emergency services are provided to campers in the public campgrounds 
and to motorists utilizing the nearby roads and highways. The loss of 
the cabins would mean the loss of these emergency responders and 
facilities. Would the Forest Service fill the gap?
    Significantly, the local lodge, grocery stores and restaurants 
would suffer if the cabin owners weren't there to support them. At Echo 
Lake, California, which is an important restocking/communication 
location on the Pacific Crest Trail, the store and boat taxi/rental 
service owner has stated that 50% of his revenues come from cabin 
owners and he would go out of business if the cabins were not there 
(statement attached as Exhibit 3D). The local historical museum, 
staffed by local volunteers, owes its very existence to cabin owners. 
Diminishing the cabin program threatens these and other services and 
businesses in this community and in similar communities near cabin 
tracts nationwide.
    There is also an impact on local governments. Results from the NFH 
Economic Impact Survey also show that property taxes, special use fees 
and, where applicable, access fees total $2,390 annually for the 
typical cabin. This extrapolates to $34.7 million in annual government 
fees and taxes nationally. Direct business expenditures for utilities 
and insurance cost the typical cabin owner $1,598 each year. Extended 
nationally, this amounts to about $23.3 million, much of which benefits 
local businesses and utility providers.
Promoting Recreational Access to the Forests
    The Forest Service has affirmed the benefits of the Recreation 
Residence Program in their Regulations (USDA Forest Service Manual at 
2721.21.33 and Handbook at 2709.22), which identify the cabins ``as an 
important component of the overall National Forest recreation 
program...[that has]...the potential of supporting a large number of 
recreation person-days...provid[ing] special recreation experiences 
that might not otherwise be available.''
    The Recreation Residence Program also provides recreation 
opportunities not only to the cabin owners, but to their friends and 
families. Based on data from the NFH Economic Impact Survey, there are 
over five million visitor days to the national forests annually related 
to the Cabin Program. In many cases, cabins provide the very young, the 
elderly, and people with disabilities the opportunity for forest 
recreation that might not be readily available for them otherwise. In 
addition, the storied traditions developed over the long years of the 
Cabin Program have fostered strong local communities that really take 
ownership and responsibility for themselves and their environment, 
something that we don't see very often in more urban environments. 
Cindy Langley's grandmother acquired her cabin in Sequoia National 
Forest in 1938 from earnings as a waitress in Los Angeles. Every spare 
cent was committed to that cabin, which remains to provide a forest 
environment for her children, grandchildren, great grandchildren and 
their many visiting friends and relatives.
    For most cabin owners, the importance of the cabin revolves around 
family and the opportunities it provides to multiple generations. In 
particular, the experiences afforded by the Cabin Program go a long way 
towards preventing today's children from being the last in the forest. 
We support the ``Kids in the Woods'' policy espoused by the Forest 
Service. A typical cabin hosts kids for 141 visitor days annually; over 
68% of typical cabin visits include one or more kids and it is common 
for a cabin owner to bring two, three or four along on a cabin visit. 
Many cabin tracts provide educational and recreational activities for 
kids who visit, such as ecology walks, trail and beach cleanups, 
fishing contests, nature scavenger hunts, etc. These activities are 
open to all, not just visitors to cabins.
The Importance of the Cabin Fee Act of 2010
    Under the current appraisal-based methodology for setting fees, the 
concept of a fee for a use has become the concept of a fee for the 
land; land the cabin owner uses but never owns yet pays for in its 
entirety every 20 years. The availability of this valuable program to 
the general public is being threatened by unreasonably high and 
uncertain fees.
    Current cabin owners can't afford these unreasonable fees. An 
example is the 87-year old widow in Arizona's Coronado National Forest 
who lives on a pension. Her cabin fees, when fully implemented, will 
rise to an amount which constitutes 10% of her income for a residence 
she can only inhabit a small portion of the year. She will have to 
``let the cabin go.'' Consider the 86-year old WW II and Korean War 
veteran who has struggled to keep his cabin on Idaho's Sawtooth 
National Forest in the family. The new $8,000 plus fee will be beyond 
his means. Similar is the situation of the 67-year old widow in 
California's Angeles National Forest who has tenaciously held onto her 
cabin to give to her son when she dies. The fee was recently raised 
from $479 to over $3400. Neither she nor her son will be able to pay 
such yearly fees and will have to leave the cabin that generations of 
their family have enjoyed.
    Worse still for the future of this program is that there will be no 
one willing to purchase these cabins from those unable to pay. We are 
increasingly seeing places where no buyers will place themselves in 
circumstances requiring the payment of such high annual fees.
    A Realtor experienced in cabin sales in Wyoming reports that no 
cabin has sold since 2004 and the three cabin owners who have tried to 
sell have found that ``...when the buyers find out how expensive the 
fees are (or may be) they laugh and then go away.'' (Letter attached as 
Exhibit 3E). Another in Idaho reports with respect to the 2008-2009 
season, ``With every showing, talks and negotiations faltered when it 
was disclosed to the prospective buyers that the possible new annual 
fee at Valley View might range from $4,500 to $6,200.'' (Letter 
attached as Exhibit 3F). A collection of letters from Realtors across 
the country shows they uniformly report that the annual fees and the 
process to set them have had a far greater negative effect on the 
salability of cabins than the current economic downturn. In many 
places, buyers have disappeared entirely, effectively reducing the 
cabin value to zero. There is no nexus between the fee that is 
established and the privilege/services granted, and the buyers see 
that.
    The Cabin Fee Act of 2010 will ensure that the Cabin Program 
remains affordable, while recognizing the difference in location values 
throughout the forests. Further, it will save the Forest Service and 
the cabin owners the time and money an appraisal-based method costs us 
both. Finally, it provides for fee certainty into the future.
Conclusion
    NFH and Coalition 2, a group comprised of a wide range of cabin 
owners and cabin association representatives including resource 
specialists, teachers, accountants, financial managers, attorneys, 
MBAs, business persons, appraisers, real estate agents, former Forest 
Service employees and just plain cabin owners, have worked hard to 
create a fee determination system that will allow this valuable 
recreation program to continue on the National Forests. Many potential 
fee setting methods were studied, ranging from fixed fee and 
alternative appraisal systems to fee calculation using various indices 
and short and long-term lease applications.
    The fee determination system proposed in the Cabin Fee Act of 2010 
was fully vetted with our NFH membership. Input from cabin owners was 
sought through national and regional meetings, email, newsletters and 
our website and found to be the best solution. We look to this method 
of setting our special use fees as a way to preserve the Recreation 
Residence Program for our children, our children's children, and for 
the American public.
    USDA Agriculture Secretary, Mr. Tom Vilsak, has said ``By using a 
collaborative management approach with a heavy focus on restoring these 
natural resources, we can make our forests more resilient to climate 
change, protect water resources, and improve forest health while 
creating jobs and opportunities.'' (USDA Department of Agriculture News 
Release #0383.09). Cabin owners, their friends and families represent 
the collaborators that Secretary Vilsack is seeking to restore and 
maintain forest health for future generations.
    One steadfast principle shared by the Forest Service and cabin 
owners is the appreciation of our natural resources and the forest 
environment. Our continued partnership aids in the management of our 
Forests, furthering the goals of the Forest Service and enhancing 
public services and recreation experiences where cabin communities 
exist. Cabin owners will continue to play a supportive role in the 
health of our small rural communities, too (Exhibit 3G).
    The Cabin Fee Act of 2010 will promote continued collaboration and 
provide for fair fees while assuring that average Americans and their 
families, the Federal and local governments, and the American public 
will continue to benefit from this unique and valuable program. Please 
support this bill and help preserve these treasured and historic assets 
for generations to come.
                                 ______
                                 
                               Exhibit 3A
Statement of Aileen Davis, Oakhurst, California
    My family cabin is the old ``Dresser log cabin'' at Huntington 
Lake, California in the Sierra National Forest. The cabin is in the 
national register of historical places and visitors from our tract as 
well as random hikers often stop by to see its historic features. I am 
90 years old and my husband is 93. I have used the cabin since its 
construction and we consider the log cabin our family treasure.
    In the early 1900's, my family frequently camped in the Huntington 
Lake vicinity, and my father, a skilled carpenter, helped those who 
were just starting to build rustic cabins in the area. In the early 
days it was a long trip from the San Joaquin Valley. In approximately 
1919 while camping in the area my father was approached by the local 
ranger who seeing there were two young children urged my father to 
apply for one of the new cabin sites. We were encouraged to acquire one 
for $15 a year in return for a 99 year lease and the right to build and 
use a summer cabin. My father acquired the permit in 1921 and built the 
cabin over a two year period. Local Lodgepole pine was selected as the 
best wood and trees were felled (by permission) and hauled to the site 
by mule. Because our cabin is on a steep descent, my father built a 
chute down which logs were slid to a level area where the cabin was to 
be constructed. They were shaped on site and placed by hand. The cabin 
foundation is of Sierra granite, locally obtained, which was dragged to 
the site, shaped by hand drilling and blasting, then put in place. That 
cabin stands today much as it was originally constructed in 1923. It 
was originally a two room cabin enlarged in 1933. It is now 
approximately 900 square feet which includes a bath and bedroom. For 
years, the only authorized access to the cabin was on foot down the 
steep slope; my father built a 70 step stairway to facilitate access. I 
can still picture my mother struggling up and down that stairway until 
we were required to remove it. We now have a narrow access road which 
we built and must maintain, season permitting.
    The cabin is heated by a wood fireplace and a wood stove, the 
latter used for cooking-a talent passed onto me by my mother. My 
husband, a WW II veteran, splits and stacks wood virtually every day 
for use in the cabin, and we still open and close and maintain the 
cabin. Our use of the cabin is confined to the summer months due to the 
weather and the condition of the access roads.
    As I reflect over the almost 90 years I have been present at the 
cabin, I have many memories. I remember the goat my parents brought up 
to the cabin every summer when I was a child-our source of milk as 
there was no refrigeration. I remember the joy of sleeping in the 
outdoor porch and seeing stars even after the addition was built in 
1933 and I was a young adult. I remember first my friends and me then 
my two sons, playing with other children in the surrounding forest and 
streams. My sons are skilled outdoorsmen having grown up in the forest.
    The cabin is often the center of dinners, meetings and conferences 
involving various groups and organizations. It has even been the site 
of a marriage and Golden Wedding Anniversary. We have tried hard to be 
good ``stewards of the forest''. I serve on the local historical 
society. My husband and I (as treasurer) participated in the successful 
effort to have the nearby virgin wilderness designated the federal 
Kaiser Wilderness Area. We have helped maintain forest trails and clear 
surrounding areas of brush and manzanita as part of fire prevention 
projects.
    My husband and I are pensioners and we have been given notice that 
the yearly fees for the ``Dresser'' cabin will be $5000! (We never saw 
the promised ``99 year lease''). Fee increases have prompted us to 
transfer the cabin to our son, a Fresno County employee. However, at 
their current level, particularly if the fees continue to rise as they 
have, our family will be unable to afford the fees and taxes associated 
with the cabin. In such a case, the future for our cabin is bleak. Who 
will purchase a 90 year old cabin with a wood stove requiring constant 
maintenance and usable only in the summer? If a wealthy purchaser could 
even be found I fear that the purchaser would be inclined to destroy 
the rustic nature of our cabin by modernizing and updating the systems 
we cherish. We are hopeful that Congress will realize the special 
nature of the recreation residence cabins and establish fair fees for 
permits that will allow cabin owners such as me and my family to enjoy 
the cabin for years to come.
Aileen Davis
                                 ______
                                 
                               Exhibit 3B
Statement of Francis True, Sawtooth National Forest
    The True cabin in the Sawtooth National Forest is much the same now 
as when my father Edwin True built the cabin in 1931. My father cleared 
the lot himself and built a log cabin from logs harvested from the 
forest. It took an entire day to reach the cabin by a Model A Ford. 
Then as now, the cabin is a 720 square foot cabin with a sleeping loft. 
Water is obtained from a surface water collection system and the septic 
system is an outhouse. We have no electricity save what is produced by 
a small generator for lights and heat is supplied by a wood stove.
    Although we have no winter access, my wife and I, our two children 
and our two grandchildren and their guests use the cabin in the winter 
months. Even in the summer difficult access road conditions hamper our 
access nonetheless we endeavor to enjoy the summer months in a this 
rustic environment. I am 86, a retired WW II and Korean War veteran and 
my wife and I live on Social Security and a pension. We have always met 
our obligations to pay the yearly fee for the use permit even when the 
fee reached $3000, a struggle for us.
    We have been informed that our new fee will be $8850 a year when 
the current moratorium expires. This is beyond our means; this fee is 
so high that we cannot even split it between families. I fear that I 
will have to transfer the permit and cabin but I question whether the 
cabin is even marketable. The cabin is old and rustic, subject to a 
high fee and I doubt anyone outside the family would take 
responsibility for it considering the high fee and all the restrictions 
imposed by the Forest Service.
    We currently have a one year permit due to a series of inconsistent 
decisions and rulings about the nature design of our outhouse and 
issues raised about the presence of a flood plain. Although we are 
hopeful that these issues can be resolved and a full 20 year permit 
issued, who would pay to take on this responsibility?
    My family agreed to serve as stewards of the forest when the permit 
was acquired and we have continued to do so for almost 80 years. We are 
hopeful Congress will reform the current fee system so that my family 
can continue to do so.
Dated February 2010--Francis L. True
                                 ______
                                 
                               Exhibit 3C
Statement of Wesley Voth, Willamette National Forest
How the Program that allowed us to build a rustic retreat cabin on 
        Forest Service/Public land in 1952 changed the course of one 
        Oregon family's history, but also have CUFFA fee structures 
        threaten to cut its next generation off from this legacy
    My name is Wesley Voth and I am the family member currently 
responsible for the fees and permit compliance for the Devil's Creek 
Cabin #24 in the Detroit Ranger District of the Willamette National 
Forest. I was born in North Portland in January 1952, the first 
grandchild of Virgil & Florence Snow who lived next door and who both 
came from Oregon pioneer families. That summer they built this cabin at 
Breitenbush beside Devil's Creek under what they always referred to as 
a 99-year U.S. Forest Service lease. Virgil had worked for many years 
as a surveyor for the U.S. Dept. of Agriculture's Bureau of Public 
Roads and had watched with concern what happened to ``paradise'' as 
roads and development came. The cabin was to be a legacy for me and my 
eventual siblings and cousins so that we wouldn't grow up as ``city 
kids.'' It turned out to have a much larger effect than that on us all.
    We began spending summers at this cabin and as much other time as 
possible from the very beginning. My father, Elver Voth, was collage 
biology major, planning a career in medicine. Time there got him 
thinking about forest issues, and the environmental mindset of my 
mother and her parents began to rub off on him. His master's thesis was 
a survey of the vertebrate animals of Jefferson Wilderness, an area 
adjacent to our cabin and necessitating spending a lot of time there. 
Our family would stay at the cabin while he backpacked through the area 
and did his research. His doctoral dissertation was on the feeding 
habits of an obscure little mammal that loggers call boomers. Later as 
a biology professor at George Fox College he was the first in the state 
to design a course entitled Ecology, and many of his college field 
trips used the cabin as a base. One of my most vivid memories is of him 
arguing with a Forest Service biologist in front of the cabin after the 
1964 flood. The other man said the destruction was an act of nature, 
and my father said yes BUT it pointed out just why logging shouldn't be 
done by clear cutting steep hillsides and next to streams. The logjam 
in front of our cabin was mostly trees that had been cut miles 
upstream--they didn't have the length or root wads to jam up closer to 
where they started out. Much to our horror, bulldozers rechanneled the 
creek and parts of the Breitenbush River, removing all wood and ruining 
the best fishing our family had known. While they were at it, they 
channeled most of the creek away from our cabin, something we always 
attributed to our family's having protested some of what was being done 
in the area.
    My most formative childhood experiences were at the cabin and the 
area around it. So it was a logical place to go just out of college, 
and I spent the winter of 1974 there alone, a virtual hermitage during 
which I decided what I wanted to do with my life. The winter in the 
forest was healing and enlightening. I hiked throughout the area and 
came to know it from an adult perspective. By spring I emerged with a 
passion to go to graduate school, begin a family of my own, and 
dedicate myself to educating a new generation to care about the earth 
and other peoples and cultures.
    After graduate school one of my first jobs was in North Portland in 
the late 70's, directing a latchkey program for black children. The 
first time I took the young teenage staff to the cabin, and then 
camping at Breitenbush Lake, I realized the severe disconnect between 
their lives and what I had experienced, even though we were born in the 
same neighborhood. None had ever been to a national forest or off of 
paved roads. This was their land, public land, but certainly no one had 
ever informed them, they had no sense of ownership or even welcome. 
They asked things like, ``What if someone finds us here?'' I taught 
them to sing, ``This land is your land, this land is my land.'' Soon it 
became their passion as well as mine to take younger kids camping in 
the Cascades, lying out under a night sky with all flashlights off to 
gaze into the Milky Way, to quiet fears rather than tell frightening 
stories. To find welcome in the embrace of nature and its many voices 
and sounds. To help kids catch fish for the first time, to learn about 
birds beyond robins and starlings, to watch deer drinking at the edge 
of a fog enshrouded lake. To see wild trees in their natural diversity 
of age and species.
    I haven't the space here to recount similar stories of my siblings 
and cousins, who all have their own experiences with the cabin, the 
formative events of their childhoods and wanting their own children 
connected to it. Or the sizeable circle of friends who have had a part 
in its upkeep and legacy. Even if the future generations are city 
dwellers, the cabin is the window to non-city life, as we have no 
family farm roots. We are all drawn to camping, outdoor pursuits and 
remain connected to the forest, enjoy eating huckleberries and wild 
greens, knowhow to build and put out a fire, keep a sanitary camp, 
fish, clear a rockslide or downed tree out of the road, not get los, 
clean up after themselves-lessons learned from time around the cabin. 
It is a natural classroom and testament to a bit of wisdom and we have 
benefitted from this arrangement, and I believe the nation has as well.
    There is a problem however. One of the characteristics of our 
family with its Quaker and Mennonite heritage is that it lives simply. 
Doesn't go in for luxuries. Doesn't spend money on vacations or travel 
other than to see family. We would never have had this transforming 
experience if it hadn't been for its low cost. Our cabin should be send 
for what it is, a rustic retreat rather than a luxury holiday home, on 
land held in public trust because of intrinsic rather than commercial 
value. We have been able to cover fees to date by passing the hat among 
us, but now the amount may triple. I don't understand appraising this 
land as anything other than forest, and forest from which the 
marketable timber has already been harvested. I don't understand paying 
the full commercially appraised value over and over every twenty years, 
which would amount to three times over the nearly 60 years we have used 
it. I don't want to own this land-it is public, and should remain so. 
We are limited in the ways in which we can use it, and none of these is 
incompatible with trees growing back in the density it was before 
harvest, a time I still remember well.
    If the new fee structures are fully implemented our family will 
have to abandon this treasure, especially as my generation retires and 
the next will come to view it as a luxury/burden. This family and the 
world it touches will become more citified as a result.
    So thank you to those wise and foresighted enough to create and 
preserve public lands and wilderness, programs to encourage their 
sustainable use, the political will to preserve some of what has always 
been here so that it always will be. It is a truly wonderful and unique 
place, positioned as it is on one of the divides between what is left 
of the great western primeval forest, and former forest lands turned 
into Douglas fir farms with their rows of identical trees. Time there 
does transform people, as we can attest.
    So, if you have made it this far you will know this is not 
primarily a complaint but a thank you. A very opinioned but heartfelt 
thank you for having improved the quality of our lives so immeasurably. 
And a plea to whomever will listen to value and protect these lands and 
programs for the good of all, and not just for those who could afford 
cabins anywhere.
    So, on behalf of my grandparents, their three children and spouses, 
my generation-12 grandchildren and their spouses, more than 20 great 
grandchildren and their growing number of spouses and soon to be an 
even more sizeable next generation, plus ion-law families and more 
friends than we would have ever had without this cabin:

In humble gratitude,
Wesley Voth, 11796 Hwy. 36, Mapleton, OR 97453
                                 ______
                                 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Grijalva. Thank you, sir. Mr. Richard Almy, cabin 
owner, Seattle, welcome. I look forward to your comments.

          STATEMENT OF RICHARD D. ALMY, CABIN OWNER, 
                      SEATTLE, WASHINGTON

    Mr. Almy. Thank you. Good morning. Thank you for the 
opportunity to speak with you today.
    My name is Dick Almy, and my family's cabin at Lake 
Wenatchee on the Okanogan and Wenatchee Forests in Washington 
State is the cabin to which Mr. Anderson referred to a moment 
ago.
    I will be talking about how the Cabin Fee Act of 2010, or 
the Act, can remedy problems cabin owners face regarding how 
cabin fees are determined for the Recreation Residence Program. 
This program is a longstanding valid use of the national 
forest, but is being threatened by the fee-setting process 
under the Cabin Fee User Act of 2000, commonly referred to as 
CUFFA.
    The current use of fee-simple land appraisal to set value 
has not worked for over 40 years. The current use of fee-simple 
land--excuse me. Illustration 1C on page 9 of my written 
testimony summarizes a comprehensive recreation land-lease 
study, and shows that the fees under CUFFA far exceed the 
national average for similar uses, whereas fees set by the Act 
better reflect market rents.
    The relationship between cabin owners and the government is 
complex due to the interdependent equity interests, whereby the 
permittee owns the cabin, whereas the government owns the land. 
Both location and cabin influence market rents and sale prices. 
And separating these two influences is both difficult and 
subjective.
    The Act, which is supported by 93 percent of cabin owners, 
acknowledges the real nature of the program, with 
interdependent interests, and offers a new and badly needed 
approach. The Act will simplify and improve the fee-setting 
process. It will encourage better relationships with the Forest 
Service, and reduce administrative workload and expenses.
    The Act institutes a reasonable annual user fee that 
incorporates the influence of cabin location by establishing a 
transfer fee upon sale. The Act provides fair compensation to 
the U.S. taxpayer, while recognizing that cabin owners bring 
value to the land and the location at their expense. Cabin 
owners must maintain the site, remove dangerous trees and non-
native vegetation, and they often provide and pay for utility 
infrastructure, including power, water systems, septic and 
sewer systems.
    Illustration 1D on page 9 compares the Act to the current 
fee-determination process as implemented through CUFFA. Our 
conclusions through this analysis include the following.
    The data indicates that almost 35 percent of cabin owners 
will reach their affordability break point in the current CUFFA 
cycle. When these folks can't sell, we estimate roughly 15 
percent, a comment mentioned earlier, of cabins, or roughly 
2100, will have to be torn down or removed at the owner's 
expense. U.S. Treasury revenue loss will be approximately 30 
percent of total revenue, or around $12 million, while state 
governments, local governments, and communities will suffer. 
Cabin losses will also reduce donated labor and forced 
stewardship provided by cabin owners.
    The Act establishes an affordable user fee, indexed 
annually, that helps maintain cabin value, and does not destroy 
the ability to sell the cabin if the current owner chooses not, 
or cannot, pay the fee. Instead of fees ranging from $125 to an 
astonishing $76,000 annually under CUFFA, the annual user fee 
will range from $500 to $4,000 per year.
    A transfer fee will capture any value influence of the 
cabin lot's location on the national forest, and is paid if 
that value is actually realized upon sale. This fee addresses 
the possibility of unwarranted profits, which is an issue you 
heard from Joel Holtrop just now.
    Cabin owners will have full knowledge of the indexed annual 
user fee, and both the seller and buyer can factor the transfer 
fee into their pricing at the time of sale.
    The Act provides comparable long-term annual revenues to 
the U.S. Treasury after consideration of cost savings by 
elimination of appraisals and revenue lost from abandoned 
cabins if CUFFA stands unchanged. Eliminating appraisal costs 
will save the Forest Service nearly $1 million annually. The 
complexity and expense of the appraisal process is replaced 
with a cost-effective fee system, and program administration 
will be simplified and adequately funded from fees retained to 
cover costs.
    Mr. Chairman and members of the Subcommittee, the Act is a 
solution that works for all parties.
    In summary, the Cabin Fee Act of 2010 ensures the long-term 
viability of the Recreation Residence Program, and produces 
cabin permit fees that are affordable and determined by the 
cabin market; are simple, understandable, and predictable; are 
revenue-neutral, maintaining current revenues, and a fair 
return to the U.S. taxpayer; address complexities of 
independent ownership interests; impose fees when benefits are 
actually received; and maintain the ability to sell cabins.
    We ask for your support of this legislation. Thank you.
    [The prepared statement of Mr. Almy follows:]

Statement of Richard D. Almy, Past President, Lake Wenatchee Homeowners 
Association, Former Director, National Forest Homeowners, Member, Cabin 
                              Coalition 2

        Recreation Residence Permit Fees on the National Forest
Introduction of the Problem
    In the late 1960's, the Forest Service revised their rules for 
establishing fees for Recreation Residence special use permits from a 
flat fee to a fee based on the appraised value of the lots, multiplied 
by 5%. Since that time, all three intervening appraisal cycles have 
resulted in repeated problems and numerous cabin owner appeals. 
Congress has been approached before to address the severe impact of a 
flawed fee-setting process.
    The current process for determining a fee for the right to own and 
use a recreation residence on National Forest System land does not 
reflect the value of what is actually received. The Cabin User Fee 
Fairness Act of 2000 (CUFFA) was drafted with the intent of 
establishing a fair fee by including the permit restrictions in the 
appraisal valuation of the lot. The sponsor of the legislation, Senator 
Larry Craig reaffirmed this in his letter to Undersecretary Mark Rey on 
July 2, 2008. However, the law, as enacted, allows for a Forest Service 
implementation that ignores the negative impact of the restrictions. In 
short, CUFFA fails to value the actual use.
    Senator Craig: ``As original sponsor of the Cabin User Fee Fairness 
Act, I would like to bring to your attention some problems in its 
interpretation that are having adverse impact on some special use 
permit holders. Because of the Forest Service's exclusion of some 
property attributes, cabin lot appraisals are being made that seem to 
be much higher than the market values of such properties should be.''
    ``I believe the text of the law is clear, and it was definitely my 
intent, to ensure the fair and consistent appraisal of cabin values in 
order to set cabin use fees using relevant market factors. The lack of 
an open market for these special use cabins is an obstacle for setting 
an appropriate fee, but the law's text as well as basic common sense 
can shed light on what market factors to consider and what the 
appropriate end results should be. Unfortunately, current Forest 
Service protocol evidently does not adequately consider the myriad 
restrictions in force on the appraised lots, which are market factors 
that would depress the valuation of these lots on the open market.''
    An often heard argument, in support of the current fee 
determination system under CUFFA, takes the position that, even with 
very high fees, some cabin owners can profit enormously at the time of 
sale. They argue that the profits are due to the location of the cabin, 
rather than the structure. It is said that high annual fees compensate 
the U.S. Taxpayer for those sale profits. In effect, the cabin owner 
pays a higher than market annual fee to adjust for a projected future 
profit. This logic assumes that a cabin can sell regardless of the fee. 
However, market evidence does not support this conclusion. Cabins in 
forests across the nation are currently finding no buyers because of 
the high fees and the uncertainties about the fee setting process. The 
loss of cabins due to unaffordable fees and the inability to sell is 
real and the consequences are severe (Exhibit 1A, Realtor Summary).
    The many conditions and restrictions (Exhibit 1B) imposed by the 
permit and Forest Service guidelines are excluded from the appraisal 
valuation process and, the Forest Service argues, are included in the 
historic 5% multiplier that is applied to the fee simple appraised lot 
value to set the annual fee. The appropriateness of this 5% multiplier 
to fee simple valuation remains unsupported by the Forest Service and 
does not adequately adjust for the limited term of the permit, a 
limited bundle of rights, the lack of investment risk to the U.S. 
government, nor the substantial differences between the cabin program 
and other public and private markets in determining a fair market value 
for this use. There is a vast difference between the bundle of rights 
held by an owner of property in fee title and the handful of privileges 
and significant liabilities a cabin owner confronts under the terms of 
the Special Use Permit. The Comparison of Recreational Home Site 
Leases, a National Forest Homeowners study completed in January 2010 
(Exhibit 1C), clearly confirms this point and further demonstrates that 
CUFFA-determined cabin fees far exceed ``market'' rates when compared 
to similar leased (or permitted) recreation land uses. The Cabin Fee 
Act of 2010 (CFA), in contrast, would establish rates that more fairly 
reflect ``average market rates and revenues''.
    The appraisal process that was employed before CUFFA 2000 and 
appraisal results under CUFFA have resulted in unfairly high fees. 
CUFFA was purportedly the answer, but resulted in the same old process. 
It was not an improvement. Cabin owners are not complaining about 
having to pay higher, -based fees, but do object to unfairly high fees 
determined by a flawed fee-setting process under CUFFA.
    The Economic Impact Survey, Final Report, National Forest 
Homeowners, April 2009, demonstrates that the vast majority of cabin 
owners are middle class. Survey data confirms that there are many cabin 
owners with annual CUFFA fees starting at $5,000 and they go up from 
there. These folks are not wealthy and very much fit the picture of 
average Americans. The mischaracterization of cabin owners as wealthy, 
which is sometimes heard and based on some very high profile 
exceptions, diverts the conversation away from the real issue, which is 
appraisal subjectivity and the extreme variation in annual fees under 
CUFFA, that range from $125 to $76,000 for a recreation residence 
permit holder's restricted use of public lands. Furthermore, an 
individual's financial status or ``ability to pay'' should not be the 
litmus test for determining a fair fee for a use, as has been often 
heard. In fact, such an argument carried to its logical conclusion, 
implies eventually that only the very rich would have access to these 
cabins. Illustration 1A demonstrates these concerns.
    The data in Illustration 1A were provided by Ted Freeman, Chief 
Appraiser of the Forest Service (Feb. 2010). They are from current 
CUFFA appraisals, representing approximately 44% of the nearly 14,000 
recreation residences nationally. Of these completed appraisals 
(6,727), more than 35% have seen fee increases of 200% or higher. Also 
notable is that 19% of the new fees exceed $5,000, 8.5% exceed $7,000 
and 3.7% exceed $10,000.Over 29% are at or above the national 
breakpoint. These very high fees have resulted in cabin owners 
requesting and paying for second appraisals. In many cases, these 
second appraisals have produced results considerably different than the 
original appraisal, demonstrating the inconsistencies and subjective 
nature of this process.
    An example of this occurred near Wilson, Wyoming on the Black 
Canyon tract (Illustration 1B). The initial CUFFA appraisal resulted in 
an annual fee of $27,250. The second appraisal, paid for by the cabin 
owner ($4,000), resulted in a fee of $19,250. In this case, the 
District Ranger decided to average the two for the final fee 
determination of $23,250. Regardless of which appraisal is used, either 
of these fees is clearly unaffordable and has completely depressed any 
sale possibilities at Black Canyon. In this example, the consequences 
of the appraisal process and the vagaries of CUFFA are devastating to 
these cabin owners.
    When annual fees reach the $4,000 - $6,000 range, the affordability 
and desirability of the Program for many cabin owners is lost, 
especially considering that many of these cabins have limited seasonal 
access (some less than three months) and limited or no utilities. (Some 
cabin owners must even carry their human waste home with them!) If an 
owner is forced to sell, we often find that the high fee can depress 
the sale price of the cabin. In some areas, these high fees have 
already made cabins unmarketable. The short story is, the costs 
outweigh the benefits and no buyer (however wealthy) is inclined to buy 
a cabin facing such fees. The May 2007 auction at Lake Wenatchee 
resulted in no bidders at an opening price of $50,000. Also, we often 
hear that people of wealth did not become wealthy because of poor 
financial decision making. Furthermore, as fees keep escalating and 
marketability dries up, a perverse incentive is created to stop 
maintaining or investing in the cabin. This incentive is not in 
anyone's interest.
    We believe that without change to the current fee-setting 
mechanism, that at least 15% of cabins (2,100) will be lost due to the 
inability to sell and inability to afford the fee. This cabin loss 
would lead to a 30% loss of revenue ($12M) to the government, because 
it is those cabins with ``higher than market'' fees that will be lost 
(refer to illustration 1A) and this is only in the current appraisal 
cycle. What will the consequences be in the next round of appraisals, 
if the flawed fee-setting process is allowed to continue? Will another 
15% of the cabins be lost when those owners are unable to sell? We 
believe the very existence of the Recreation Residence Program is 
threatened.
    Though certainly well intended, CUFFA failed to achieve a 
consistent and fair fee determination process. Congressional action is 
necessary, particularly in these times of economic stress and strain, 
to correct the problem once and for all and sustain the opportunity for 
family-oriented recreation through the Recreation Residence Program. In 
the absence of such action, the Recreation Residence Program will 
dwindle and family legacies will be lost. The demonstrated Program 
benefits for the public and Forest Service will also be lost and forest 
stewardship by cabin owners eliminated. We seek Congressional support 
to re-evaluate the fee-setting process and enact the Cabin Fee Act of 
2010 (CFA) that comprehensively addresses these concerns with 
objective, fair and appropriate solutions and avoids the consequences 
of doing nothing.
Deficiencies of the Appraisal Process or ``Why CUFFA doesn't work.''
    CUFFA attempts to define ``market value'' within the appraisal 
process. However, the process compares the permitted cabin lots to fee 
simple ownership of land, effectively ignoring the negative 
restrictions imposed by the permit and its inherent risks. This 
approach results in an inflated ``market price'' for such a restricted 
use. The 5% factor, said by some to appropriately adjust for the 
restrictions, is not sufficient. Simply changing the percentage will 
not produce fair results, either. The 5% factor results in cabin owners 
paying for the full fee simple value of the land every 20 years, but 
never owning the land. Interestingly, we have heard field comments made 
by Forest Service appraisal staff that the 5% factor is probably too 
high. However, lowering it still does not solve the problem overall and 
would substantially reduce program revenues.
    A fee that is based on a lower percentage may be fair at the high 
end but unfair at the low end. Conversely, a fee that may be fair at 
the low end will result in a fee that is unjust at the high end. 
Commonly, the geographic proximity of resort areas unfairly results in 
high fees for modest cabin tracts. The Comparison of Recreational Land 
Lease Study clearly demonstrates that the CFA produces above ``average 
market revenues'' for similar leased (or permitted) recreation land use 
and that CUFFA fees far exceed ``market'' rates as depicted in 
Illustration 1C.
    An appraisal paradigm has many deficiencies. Below is a short list 
of a few of the more important deficiencies of the appraisal process. 
These deficiencies add to administrative headaches for the Forest 
Service and cabin owners alike.
    <bullet>  It does not provide adequate adjustments for severe use 
restrictions that are imposed by the term special use permit and 
Regional and National FS guidelines.
    <bullet>  It is a subjective process using opinions of value that 
vary from one appraiser to the next. How rigorous the process varies 
Forest to Forest, based on an individual's interpretation of the data 
and attitude toward the Program. Upon second appraisals, District 
Rangers can choose the original appraisal, the second appraisal or 
something in between. We have seen examples of all these responses.
    <bullet>  It fails to account fully for the limited season of use 
in many areas. Some cabins become accessible only after July 4th and 
heavy snow can fly in September. Others are adjacent to lakes with dams 
and face serious drawdowns beginning in September, resulting in a less 
desirable location.
    <bullet>  It requires vast amounts of time and preparations both by 
the cabin owner and the Forest Service. Commonly, 20 to 40 page 
documents have been prepared by cabin owners to present to contract 
appraisers, as preparation for the appraisal. Add to this that the 
appraisal process itself, within a given Forest, often takes over six 
months to complete. The personnel and time costs are high.
    <bullet>  The process often requires repeat appraisals that lead to 
questionable conclusions. A glaring example just occurred on the 
Okanagon-Wenatchee National Forest, where implementation of the 1990's 
appraisal has been completely withdrawn due to lack of supporting 
documentation. We now have cabin fees around the nation being based on 
appraisals from the 1970's, the 1990's and the 2000's. This is not a 
system that is ``fair'' or ``works''.
    <bullet>  The entire appraisal cycle takes five to nine years to 
implement and must be repeated every ten years.
    <bullet>  The process is expensive, costing nearly $1M annually.
    The fact is that the ability to build and occupy a cabin on public 
land is subject to the requirements of a Term Special Use Permit. The 
cabin structure itself is the cabin owner's only property interest. The 
land remains owned by the public under the management of the Forest 
Service. A cabin owner does not have any sort of leasehold interest in 
the underlying land. Therefore, using a land value appraisal process to 
value the use of the land is a questionable process and poor 
application of logic.
    Congress has recognized cabins as an appropriate and authorized 
recreational use since at least 1915, as one among many multiple uses 
of the National Forests. Most cabin owners are middle class and have 
small cabins (many are 800--1,200 sf) that are used as a family 
gathering place to pass on to children and grandchildren an 
appreciation for the outdoors, a connection to nature and good forest 
stewardship. The Recreation Residence Program provides an opportunity 
for members of the public to have cabins on the National Forest, but 
excessive and inconsistent pricing of this opportunity using the 
procedures under CUFFA is undermining the very purpose of the Program. 
CUFFA does nothing to further the availability of the Program to the 
general public or maintain long-term public interest and, we believe, 
puts the Program on a path to extinction.
    Over 95% of cabin owner respondents to the 2009 NFH Cabin Sales and 
Appraisal Survey said that they were dissatisfied with the appraisal 
process under CUFFA. Concerns about the failure of CUFFA are 
nationwide. Also recognizing the problem, many Forest Service 
representatives in the field have suggested we seek legislative change 
to address the failure of CUFFA. Mr. James Sauser, USFS Region 6 
Special Uses, has been quoted in news articles about the failures of 
the appraisal process: ``The appraisals are time consuming and result 
in fees that are either too high or too low.'' (The Seattle Times, 
Sept. 9, 2009.) Finally, the 10-year appraisal cycle can take five 
years or more to implement. In fact, due to Forest Service budget 
deficiencies, the process in Region 5 is expected to take nine years to 
complete according to the Recreation Residence Assessment provided by 
the Pacific Southwest Region. Change is needed! We believe that 
constructive change is exactly what the CFA is all about.
Goals and Principles of the Cabin Fee Act of 2010 (CFA).
    The relationship between cabin owners and the government is complex 
due to interdependent equity interests; the cabin owner owns the 
structure and the government owns the land. When a cabin is sold, both 
the land (location) and the structure influence the selling price. 
Separating these two influences, or equity interests, is difficult and 
subjective. There is no simple or absolute answer. The CFA, which is 
widely supported by cabin owners, acknowledges the difficulties of 
setting a Program with shared interests and offers a new approach!
    The CFA institutes a predictable and affordable annual fee while 
addressing the location factor by establishing a Transfer Fee upon 
sale. The fee-setting process in the CFA acknowledges the need for fair 
compensation to the U.S. taxpayer. It also recognizes that cabin owners 
contribute to land and location values at their expense. In complying 
with the terms of the permit, cabin owners are responsible for removing 
nearby diseased or hazard trees, noxious and non-native vegetation and 
nearby wildfire fuels. Utility infrastructure, provided by the cabin 
owner, becomes part of the land, including water and sewage disposal 
systems. Further, on many Forests, cabin owner-purchased water rights 
are reverting to the land and government ownership!
The goal of the CFA is to ensure the long-term viability of the 
        Recreation Residence Program.
    To achieve this goal, the following basic principles guided and 
informed the writing of the CFA. The fee determination process for 
Recreation Residences on National Forest System Lands, as embodied in 
the Cabin Fee Act of 2010, must provide:
    1.  For the long-term viability of the Recreation Residence 
Program.
    2.  An affordable, but ``market-determined'' fee now and in the 
future for average Americans.
    3.  A simple, understandable and predictable fee determination 
process (fee certainty).
    4.  A revenue neutral process, that maintains current government 
revenues and guarantees a fair ``market'' rate of return to the U.S. 
Taxpayer for the use of public lands.
    5.  A mechanism to address the complexities of shared interests in 
the Program, both on an annual use basis and upon sale of a cabin. An 
understanding of mutual shared interests relative to ``location'' must 
be a central and guiding consideration.
    6.  For fees that are imposed when actual benefits are received. 
This applies both for the annual use and upon sale, when the actual 
market for cabins on National Forest System lands reveals the actual 
market value and the financial wherewithal is available to pay the 
Transfer Fee.
    7.  For maintaining the ability to sell cabins at a fair and 
reasonable price.
    If the Cabin Fee Act of 2010 (CFA) becomes law, we submit that the 
following Program benefits will be greatly enhanced and encouraged.
Merits of the Cabin Fee Act of 2010
    1.  The documented and extensive forest stewardship work of cabin 
owners will be allowed to continue and be encouraged to expand on local 
Forests.
    2.  The opportunity for genuine partnerships with the Forest 
Service will be further encouraged and enhanced through collaborative 
dialogue, thereby improving the overall process of administration and 
removing a material cause of conflict between the local Forest Service 
and cabin owners.
    3.  Program administration will be simplified and adequately funded 
from fees retained sufficient to cover Forest Service costs.
    4.  Sorely needed revenue streams to state and local governments 
will continue unabated.
    5.  Support for local businesses and local employment will 
flourish, as cabin owners continue their regular patronage of nearby 
businesses, ensuring the viability of local rural communities.
    6.  The U.S. Taxpayer are guaranteed a fair market revenue stream 
for the limited use of their public lands.
    7.  The significant time delays of implementation are avoided.
    8.  The windfall profits issue is eliminated.
    Refer to Illustration 1D, Comparison of the Cabin Fee Act to the 
current fee determination process as defined by CUFFA.
Comparison of CUFFA to the Cabin Fee Act
    Loss of Cabins: The Sales Data and Appraisal Survey data show 
almost 30% of cabin owners will reach their breakpoint of affordability 
in the current CUFFA appraisal cycle. When these folks can't sell, we 
estimate roughly 15% of cabins (2,100) will have to be torn down or 
removed at the owner's expense. U.S. Treasury revenue loss will be 
approximately 30% of the total potential fees ($12M) while local 
governments and communities will suffer. Cabin losses will also reduce 
donated labor and high quality forest stewardship provided by cabin 
owners.
    Reasonable Annual Fee: The CFA establishes a User Fee, indexed 
annually from a rank order of current market data, but sets the fee at 
an affordable level that helps maintain cabin value and does not 
destroy the ability to sell the cabin if the current owner cannot or 
chooses not to pay this new fee.
    Annual Fee Range: Instead of fees ranging from $125 to the 
astonishing $76,000 annually, the User Fees will range from $500 to 
$4,000 per year.
    Transfer Fee: A Transfer Fee will capture any value influence of 
the cabin lot's location on the National Forest and is paid if that 
value influence is actually realized by the sale. This fee addresses 
the possibility of windfall profits, which is an issue raised by the 
Forest Service.
    Predictability: Cabin owners will have full knowledge of the 
indexed annual User Fee, and both the seller and buyer can factor the 
Transfer Fee into their pricing at the time of sale.
    Administrative Process: The complexity and expense of the long, 
drawn out appraisal process is replaced with a cost effective and 
simple fee-setting system; and Program administration will be 
simplified and adequately funded from retained fees sufficient to cover 
Forest Service costs.
    Program Revenues: The CFA provides comparable long-term annual 
revenues to the U.S. Treasury after consideration of cost savings 
related to elimination of appraisals and revenue not collected from 
cabins that will be lost from the Program if CUFFA stands unchanged.
    Cost Savings to Forest Service: In addition to reducing the 
administrative workload, all appraisal costs are eliminated. This will 
save the Forest Service nearly $1 million annually, plus the Forest 
Service will retain revenue from fees sufficient to cover the cost to 
administer the Program.
    The Act is a solution that works for all parties.
Summary and Conclusions
    The Recreation Residence Program is threatened. Thankfully, 
Congress has already made the commitment to the health of the Program 
by recognizing it as a valid use of the National Forests. The failures 
to correct the problems with the fee determination system have only 
recently been exposed under the current appraisals. Congressional 
action is therefore needed.
    The Cabin Fee Act of 2010 offers a new approach that will simplify 
and improve the fee determination process. It will encourage local 
partnerships, collaboration and dialogue with the Forest Service while 
reducing the administrative burden and government expense. We are 
committed to a new direction and ask for your support of the Cabin Fee 
Act of 2010.'

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Realtor Summary: Effect of CUFFA Permit Fees on the 
               Health of the Recreation Residence Program

    Cabin owners in many parts of the country are having difficulty 
selling their cabins. It has been said that cabins are not selling due 
only to the current downturn in the real estate market. This is an easy 
answer with little need for justification because everyone knows the 
market is at historic lows. However, this fails to acknowledge the 
impact of unreasonably high fees on the Recreation Residence Program. 
To get an understanding of this impact, we contacted real estate 
professionals across the country to get their perspectives about cabin 
sales on Forest Service lands under the CUFFA appraisal process. Their 
letters are attached for your consideration.
    These letters come from Arizona, California, Idaho, Montana, 
Nevada, Oregon, Washington, Wisconsin and Wyoming. The collective 
experiences clearly demonstrate that the current and anticipated high 
fees are unreasonable and negatively impact the ability to sell cabins. 
If current cabin owners cannot pay the fees and potential buyers are 
unwilling to pay them, cabin values and program revenues will decline. 
Long-term, these unreasonably high fees will threaten the very 
existence of this valued and valid program for family-oriented 
recreation.
Respectfully submitted,
National Forest Homeowners and Coalition 2
Letters attached from the following real estate professionals:
Everett J. Jones, Jr.; Everett J. Jones, Real Estate, Inc., Douglas, AZ
Carol Butler, Broker Owner; American River Canyon Realtors,
  South Lake Tahoe, CA
Lori Akers, Realtor; Century 21 Jeffries Lydon, Chico, CA
Lynn Morton, Broker; Sierra Crest Real Estate, June Lake, CA
Patty Schwartzkopf, Realtor; Coldwell Banker Mammoth Real Estate,
  Mammoth Lakes, CA
Chucker Twining, Broker Associate; Prudential California Realty, Twain 
        Harte, CA
Jason T. Roth, Associate Broker; Coldwell Banker Conklin & Company,
  Ketchum, ID
Elinor Williamson, Realtor; Clearwater Montana Properties, Inc., Seeley 
        Lake, MT
Marianne Pearsall, Realtor; Coldwell Banker Select Realty, Incline 
        Village, NV
Linda Barron, Broker; Cascade Realty at Crescent Lake, Crescent Lake, 
        OR
Craig E. McKern, Appraiser, P.C.; McKern Appraisal, Eugene, OR
Barbara Bailey, Associate Broker; Puget Sound Real Estate, Tacoma, WA
Scott McKinney, Broker; McKinney Realty, Cable, Wl
David Veihman, Owner/Associate Broker; Jackson Hole Real Estate 
        Associates,
  Jackson, WY
Ellen Linn, Associate Broker; Jackson Hole Real Estate Associates,
  Jackson, WY
                                 ______
                                 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 Conditions and Restrictions Affecting 
                Recreation Residence Special Use Permits

Application to all permittees:
    <bullet>  The use of the cabin lot by the permittee is not 
exclusive. The only portion of the lot to which a permittee has 
exclusive use is the area underlying the cabin. The general public is 
free to use all land not physically occupied by the cabin.
    <bullet>  Can only obtain a permit for the right to keep 
improvements on Forest Service land for a maximum term of 20 years.
    <bullet>  Permit termination can be made for another use during 
that term, unlike a lease whose term is definite.
    <bullet>  In the event of permit termination by the Forest Service 
for some other use, although fees are ramped down, the improvements 
must be entirely removed at the expense of the permit holder. This 
expense is complicated by the remote nature of the cabins. As a result, 
loans to finance the purchase of a cabin are nearly impossible to 
obtain.
    <bullet>  In the event that the Forest Service determines it needs 
the lot for another use, termination can happen in less than 10 years, 
resulting in a payment to the permittee of the ``equitable'' 
(determined by the Forest Service) value of improvements but avoiding 
the permittees' expense to remove those improvements.
    <bullet>  Notwithstanding the non-exclusive right to use the lot to 
which the cabin is connected, the permittee is responsible for both on 
and off-lot liabilities, such as the removal of hazard trees.
    <bullet>  A cabin cannot be the permanent residence of its users. 
Neither can one be rented out except for a minimum time period, and 
then only after prior approval of the permit administrator.
    <bullet>  In the event of substantial damage or destruction, 
rebuilding is not assured. A new determination is made as to whether a 
new cabin should exist on that site, and it may take years before a 
decision is made. Further, there is an option to provide an alternative 
location, but such option is limited and entirely left to the permit 
administrator's philosophy about recreation residences.
    <bullet>  The permit is never transferred. A new owner must apply 
to the Forest Service after the Bill of Sale is completed for a new 
permit. A cabin owner during the sale process cannot make binding 
representation that the Forest Service will reauthorize the use.
    <bullet>  If the recent changes to the permit prevail, the permit 
will be considered a 'license' and not a contract. In addition, all 
water rights held by the permittees are of questionable ownership. 
Rules are changed without notice or permittee input.
    <bullet>  Permit fees set by capricious and unpredictable process 
that often create undue stress and render cabins unmarketable.
    <bullet>  Permittees subject to O & M plan specifications that do 
not apply in private market.
Regional and Local Forest and/or Ranger Restrictions (vary from 
        location to location):**
    <bullet>  Limit on size of cabin, varies region to region (900-1500 
sq. ft.).*
    <bullet>  Limit on size of deck, porch/patio, varies region to 
region.*
    <bullet>  Cabin may have an open loft, but a full 2nd story is not 
permissible.*
    <bullet>  No guest cabin or auxiliary sleeping quarters.* One 
outbuilding for storage allowed, limit on size & varies by region.*
    <bullet>  Reconstruction or alteration of improvements requires 
advanced Forest Service approval: and all construction (including 
materials) must be reviewed in light of the National Historic 
Preservation Act, the Endangered Species Act (flora and fauna), the 
Clean Water Act, and archeological concerns. Inspection by all the 
people responsible for these areas of concern often takes a great deal 
of time.
    <bullet>  Exterior colors, including roofs, must have Forest 
Service approval. Location of and specification for materials 
protecting wood piles mandated.
    <bullet>  Fences/gates are not permitted. Satellite dishes are not 
permitted. Yard lights by approval only on buildings, no automated 
safety lights.
    <bullet>  No new permanent outdoor fireplaces are permitted. Fire 
rings of a temporary nature may be acceptable in some areas, while in 
others even a charcoal barbeque on a deck is prohibited.*
    <bullet>  Only native plantings are permissible. Minimal lawn area 
allowed in some cases.
    <bullet>  Removal of vegetation, including hazard trees only with 
Forest Service permission and at cabin owner's expense.
    <bullet>  Local rules often conflict with fire-safe mandates.
    <bullet>  Any exterior repairs/alterations must have Forest Service 
approval, whether other governmental agencies' requirements are needed 
or not, i.e. county building permits.
    <bullet>  Cabin owners assume all risk of loss to their 
improvements resulting from acts of God or from a catastrophic event. 
The Forest Service will conduct an analysis and determine if rebuilding 
will be allowed.
    *Note: Existing improvements can currently remain if outside these 
guidelines. However, during replacement, maintenance and change of 
ownership of the cabin, and sometimes to obtain a new permit upon 
expiration of the prior permit, the Forest Service can require 
compliance with Forest Service standards. Requirements under the 
National Historic Preservation Act often result in limited ability to 
change the cabin in any way whatsoever. **Further Note: This listing is 
not all-inclusive, as local decisions can and often do impose 
additional restrictions on use, maintenance and exterior impacts.
                                 ______
                                 
Exhibit 1C
              Comparison of Recreational Home Site Leases
   on behalf of the national forest homeowners and cabin coalition 2
    We have gathered as much lease data as we could find through the 
Internet, NFH homeowners, public and private lessors and lessees, and 
other contacts. At times, we were able to talk to both lessee and 
lessor of a property. We often asked for their best estimates of items 
such as average fees. We did not try to sort through leases but added 
every lease we found with adequate information. Often leads on leases 
did not result in sufficient information and those leases were not 
included. There are undoubtedly many more leases to be found. These 
results do not cover all leases for some entities such as PacifiCorp, 
Pacific Gas & Electric, State of Montana, etc. But we believe this is a 
representative sample of leases throughout the United States.
    At times we had to keep owners' names private to obtain their 
information. We felt the gain outweighed the loss of a specific name 
and location.
    With the exception of CUFF A projected fees, all of the fees are 
for 2009. The projected average CUFFA fee at full implementation is 
based on current USFS appraisals and NFH's projection of the results of 
future appraisals. Having said that, we believe the average will be 
somewhat less because a significant number of homeowners will be unable 
to sell their cabins or to pay the fees on their cabins.
    USFS cabin owners are permit holders, not lease holders, and the 
rights and privileges they enjoy are more limited and less valuable 
than those accorded lessees.
    Interestingly, a few public lessors were less forthcoming with 
information than private lessors. We are appreciative of all the help 
we received; most were generous with their time and energy.

Barry & Karen Davis
Eagles Nest Tract, Humboldt-Toiyabe NF
40 Casper Drive, Cody, WY 82414
USFS Retired. Former Shoshone National Forest Supervisor.

Rob Scanland
Thomas Canyon Tract, Humboldt-Toiyabe NF
1300 Pinion Hills Dr., Carson City, NV 89702
Private and public appraisal work including USFS.
                                 ______

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
    Mr. Grijalva. Mr. Peter Bailey, Board of Directors, 
National Forest Homeowners, welcome.

  STATEMENT OF PETER D. BAILEY, BOARD OF DIRECTORS, NATIONAL 
             FOREST HOMEOWNERS, TACOMA, WASHINGTON

    Mr. Bailey. Thank you, Mr. Chairman and members of the 
Committee. My name, as you said, is Pete Bailey, and my family 
cabin is located on the Olympic National Forest in the State of 
Washington.
    In my testimony today I will address the permit fee 
structure and program revenue resulting from the Cabin Fee Act.
    The proposed Act includes an annual user fee and a transfer 
fee paid when a cabin is sold or transferred. Illustration 2A 
on page 8 of the written testimony explains the annual user 
fee.
    Five fee tiers will be established, replacing the current 
CUFFA fee structure. The user fees were determined by balancing 
the rights and privileges that all permit holders share, 
regardless of location, while acknowledging the location does 
influence the value of the permitted use.
    This balance of common rights and differences for location 
yields a fee structure where the highest fee is eight times the 
lowest fee. This contrasts with the fees under CUFFA, where the 
highest fees are more than 100 times greater than the lowest 
fees.
    The Cabin Fee Act requires the assignment of each permit to 
one of these fee tiers. Though not perfect, the rank order of 
current appraised values provides a basis for this assignment.
    The lowest 10 percent of appraised lot values are assigned 
to the $500 tier. The highest 5 percent are assigned to the 
$4,000 tier. Following this process, user fee revenue is 
projected to be about $24 million for the first year. These 
fees are adjusted annually by a rolling average of the IPD/GDP 
index. This broadly used Department of Commerce index provides 
for a reasonable, straightforward method of increasing fees 
annually, while ensuring user fees keep pace with the market.
    Illustration 2B explains the transfer fee. The transfer fee 
has two components. First, the $1,000 collected for all cabin 
sales and transfers. If the sale price exceeds $250,000, an 
additional 5 percent of the sale price exceeding 250, up to 
$500,000, is applied. Plus for sale amounts exceeding $500,000, 
an additional 10 percent is applied.
    For this fee projection, annual cabin sales and prices per 
range were determined by our survey last fall. We project 
transfer fee revenue to be approximately a million dollars for 
the first year. When we combine the annual user fee and the 
transfer fee, we project total revenue of $25 million in the 
first year. This compares favorably with Forest Service 
projections of $22 million under CUFFA this year.
    In my written testimony, a 10-year projection of program 
revenue from the Cabin Fee Act and CUFFA is illustrated. This 
comparison reflects net 10-year program revenue of $276 
million, under the Cabin Fee Act, which compares favorably the 
net program revenue of $267 million under CUFFA for the same 
period.
    We can expand on this comparison of fee structures to the 
broader market of public and private cabin lease programs. A 
market survey concluded this fall that included over 1100 
cabins compared programs similar in nature to the Forest 
Service Recreation Residence Program. We believe this survey 
fairly represents the market for similar cabin programs, and 
further validates the use of public forest lands for recreation 
residence purposes.
    While user fees range widely due to variations in permit 
and lease terms and location considerations, the average user 
fee was less than $1,000. This is considerably less than the 
average fee of $1,700 under the Cabin Fee Act. We offer this as 
further evidence that the proposed fee structure provides a 
fair return to the U.S. Government, and is based upon sound 
market principles.
    With predictable and affordable fees under the Cabin Fee 
Act, we expect all 14,000 current permits to remain active, 
keeping the Forest Service program within the reach of a 
typical American family.
    By contrast, while CUFFA is expected to provide similar 
total revenue over time, we project the high fees and 
uncertainty will result in a decline in the number of permit 
holders under CUFFA to less than 12,000 over the next decade. 
Thus, reducing the typical American family's participation in 
this program.
    This same pattern of permit loss is likely to be repeated 
in future appraisal cycles, further eroding the Recreation 
Residence Program.
    To summarize, the strength of the Cabin Fee Act is its 
simplicity. The simple and straightforward fee structure 
provides long-term predictability and affordability for the 
cabin program, plus provides significant administrative time 
and cost savings to the Forest Service. These cost savings 
allow for the redeployment of Forest Service resources away 
from managing appraisals, reappraisals, and permit fee appeals, 
to a more productive delivery of programs and public services.
    The Cabin Fee Act provides a true win-win outcome for the 
cabin owner and the Forest Service, while providing market 
rents for the U.S. taxpayer.
    We thank you for the support of this legislation.
    [The prepared statement of Mr. Bailey follows:]

       Statement of Peter D. Bailey, National Forest Homeowners, 
             Director, Cabin Coalition 2 Steering Committee

                Permit Fee and Program Revenue Overview
Introduction
    The Cabin Fee Act of 2010 (CFA) includes both an annual User Fee 
and a Transfer Fee that is applied when a cabin is sold or otherwise 
transferred. The tiered annual User Fee pays for the rights granted by 
the permit that every cabin owner receives, while addressing the costs 
to administer the Program and the relative value differences due to 
location. The Transfer Fee (percentage of the sale price) also 
addresses the value influence of the cabin site location and attempts 
to capture some location or site values that exceed the value of the 
structure alone at higher sale prices. We believe the location 
differences, site variability and the impact of the permit restrictions 
on value are best captured when a cabin sells, when the market 
determines value. This Transfer Fee also provides for payment when 
funds are available from the sale of the cabin. With established User 
Fee tiers and fixed Transfer Fee percentages, this approach provides 
future predictability and affordability for the Cabin Program long-term 
plus easy and consistent administrative procedures for both the Forest 
Service and permit holders to follow.
    Five annual User Fee tiers are established under the CFA, ranging 
from $500 to $4,000, replacing the current fee structure under CUFFA. 
The User Fee tiers were determined by balancing the user rights and 
privileges of the permit, which are equally applied to all permit 
holders regardless of location, with the recognition that location and 
associated recreation amenities do influence the value of the permitted 
use. The CFA places the vast majority of the annual User Fees in the 
$1,000 to $3,000 range, which we believe represents the fair market 
value of the permitted use. Fewer permits are assigned to the $500 and 
$4,000 levels which recognize those User Fees where location and/or 
recreational amenities may be substantially lower than, or higher than, 
a typical cabin site. This balance of common rights with differences 
for location yields a fee structure where the highest fee is eight 
times the lowest fee. This contrasts with the current fees under CUFFA 
where the highest fees are more than 100 times greater than the lowest 
fees.
    Converting from the CUFFA-based annual permit fees to the CFA 5-
tier User Fees requires the assignment of each permit to one of the fee 
tiers. We recognize there is no perfect method of assigning the current 
permits to the User Fee levels. After consideration of various 
alternatives, we determined the use of quantifiable information offered 
the best method for dividing the 14,000 permits into the five fee 
tiers. While the current appraisal system under CUFFA is subject to 
much criticism, we believe using the permit holder's most recent 
appraised lot value, ranked in order from the lowest appraised value to 
the highest appraised value provides a basis for assigning each permit 
to a fee tier. The 10% lowest appraised lots are assigned to the $500 
level, the next higher 35% are assigned to the $1,000 level, the next 
higher 40% are assigned to the $2,000 level, the next higher 10% are 
assigned to the $3,000 level, with the highest 5% assigned to the 
$4,000 level. Because 85% of the permits are assigned to the affordable 
range of $1,000 to $3,000, the imperfections of the actual appraised 
values are not likely to cause major inequities with the assignment of 
permits to fee tiers.
    The following discussion refers to Illustration 2A.
    a.  The fee tier assignment is made by using the relative order of 
the most recent appraised value of each permitted lot. Permitted lots 
with the 10% lowest appraised values will be assigned to the $500 
level, while permitted lots with the 5% highest values will be assigned 
to the $4,000 level.
    b.  The resulting ``normal distribution'' of fee tier assignments 
follows the same general distribution of values found in the current 
cycle of Forest Service appraisals.
    c.  The vast majority of permit holders would pay a CFA User Fee of 
the same or lesser amount compared to fully implemented CUFFA permit 
fees, based on the current appraisal cycle. A relatively small number 
of permit holders, those at the very lowest levels, would pay slightly 
higher fees under CFA, than under CUFFA.
    d.  This mix of permits to fee tier levels generates sufficient 
annual Program revenue to the U.S. Government to replace expected net 
revenues under CUFFA.
    e.  The annual User Fees are adjusted each year by the changes in 
the Implicit Price Deflator for Gross Domestic Product (IPD-GDP) index, 
published by the Bureau of Economic Analysis of the Department of 
Commerce.
    f.  Two objectives of the CFA are affordability and long-term 
predictability. The fee structure established achieves both these 
objectives and is annually adjusted to compensate for inflation. The 
CFA provides for affordable, predictable fees going forward, unlike the 
current appraisal methodology which could have dire impact every ten 
years.
    g.  The User Fee total Program revenue is projected to be $23.8M 
for the base year of 2010, assuming the legislation becomes effective 
beginning this year.
    The following discussion refers to Illustration 2B.
    a.  The projected number of cabins sold per year is 3% of the total 
or approximately 420 cabins. (Sales Data and Appraisal Survey Report, 
National Forest Homeowners & Cabin Coalition 2, November, 2009.)
    b.  The Transfer Fee projections use average sale prices from five 
ranges of cabin sales.
    c.  The percentage of cabins sold per range and the average sale 
price within each range were determined from the Sales Data and 
Appraisal Survey, conducted by the NFH & Cabin Coalition 2 during the 
fall of 2009.
    d.  A Transfer Fee of $1,000 is assessed for all cabin sales, plus 
an additional amount equal to 5% of the sale price that exceeds 
$250,000 up to $500,000, plus an additional amount equal to 10% of the 
sale price that exceeds $500,000.
    e.  The $1,000 Transfer Fee is intended to cover the Forest Service 
administrative costs and provide for a ``location factor'' for cabin 
sales under $250,000, where the location factor in the sale price is 
considered minimal. The $250,000 amount was arrived at by estimating 
reproduction costs associated with typical cabins. Most Forest Service 
Regions restrict the size of the cabin, usually within a range of 900 
to 1,600 sq. ft. The cost of construction can range from $125 to $300 
per sq. ft., depending on the quality of construction, materials used, 
and the remoteness of the location. For cabins designated as historic, 
reproduction costs can increase substantially. Some areas provide easy 
access, others require long distance travel for supplies and labor and 
still others are accessed only by water, on foot or by pack animal. The 
cabin owner also bears the cost of infrastructure improvements, such as 
utilities. Using an average of 1,200 sq. ft. and an average cost of 
$200 per sq. ft., we arrive at a figure of $240,000 (1,200 sf. ft. x 
$200), rounded up to $250,000 for site improvements.
    f.  For a cabin selling for more than $250,000, it's difficult to 
determine how much of the sale price may be associated with location, 
compared to actual and intrinsic value of the cabin property itself. 
The design, artistic characteristic, materials, and historic value of 
the cabin structures may be valued differently from one prospective 
purchaser to another. While it's difficult to arrive at any precise 
formula, we generally believe cabins sold for very high prices are more 
likely to contain location value as a component of the sale price, thus 
justifying higher Transfer Fees above the $250,000 level.
    g.  Using the Transfer Fee formula, the projected number of sales, 
and average cabin sale prices, the projected total Transfer Fee revenue 
is $1,013,750 for the base year 2010, which is approximately 4% of the 
projected total Program revenue.
    h.  Over 50% of the annual Transfer Fee revenue will be generated 
from the top 10-15% of cabin sale prices, supporting the premise that 
values for location are more likely present where sale prices are 
substantially higher than average or typical cabin sale prices.
    i.  When the Transfer Fee revenue is combined with the User Fee 
revenue, the Total Program Revenue under the CFA is approximately 
$24.8M for the base year of 2010. This amount compares favorably with 
the Forest Service projection of $22M for 2010 under CUFFA. The Forest 
Service Revenue Projection was provided to Senator Feinstein last 
summer 2009 upon her request for the information. (Exhibit 2A)
    The following discussion refers to Illustration 2C.
    a.  The annual IPD-GDP index of 2.4% used for the projections is 
based on the average of the last 25 years.
    b.  The CUFFA Gross Revenue projections were provided by the Forest 
Service for years 2008-2014. The projected amount for 2016 was 
interpreted from the Forest Service statement ``the agency projects $40 
million in annual fees upon full implementation. The last appraisals 
will be reviewed in FY 2012 and will begin a 3-year phase-in in FY 
2014.'' The projected revenue amounts for 2017-2019 were calculated by 
applying the IPD-GDP index increase over the previous year fee amount.
    c.  Under CUFFA, some permit fees will increase beyond the level 
the current or any prospective permit holder would be willing or able 
to pay. The number of abandoned permits is projected to increase 
steadily as higher fees are implemented from the current CUFFA 
appraisal cycle. Upon full implementation of CUFFA, approximately 2,100 
permits, or 15% of the total, are projected to be lost due to high fees 
as determined from the Break Point analysis found in the Sales Data and 
Appraisal Survey Report. (Exhibit 2B)
    d.  The CUFFA Net Revenue is determined by subtracting the revenue 
lost due to abandoned permits from the gross CUFFA revenue projections. 
Because abandoned permits generally occur at higher fee ranges, the 
projected revenue loss is approximately twice the percentage of permits 
lost. The amount of Program revenue loss under CUFFA is projected to 
reach 30% by 2016, the year CUFFA reaches full implementation.
    e.  The annual Program revenues under the CFA increase each year by 
the IPD-GDP index of 2.4%. All 14,000 permits are expected to be 
retained under the CFA by keeping annual user fees within an affordable 
range.
    f.  The total CFA Net 10-Year Program Revenue of $276M compares 
favorably with the projected CUFFA Net Revenues of $267M.
    g.  Applying a discount rate of 3.75% (10-yr treasury rate) to the 
10-year revenue streams of both programs yields a Net Present Value 
(NPV) of the CFA Program Revenues that is approximately $8M greater 
than the NPV of the CUFFA Program Revenues for the same period.
    The following discussion refers to Illustration 2D.
    a.  This summary, based on the Comparison of Recreational Home 
Sites Leases, National Forest Homeowners, January, 2010, provides us 
with a method for comparing the Forest Service Recreation Residence 
Program to other programs with a similar use. While the authors make no 
representation that the study includes all such programs, we believe 
their best effort survey offers a reasonable representation of the 
market for recreation residence programs in the United States.
    b.  While no two programs are identical, a number of similarities 
exist. Each program provides the permit holder with the right to 
maintain a recreation residence on forest land in return for an annual 
fee. The market study focused primarily on programs using public lands, 
while also including several programs on private lands where terms were 
similar to the public land programs. Over 11,000 cabin lots are 
represented.
    c.  Several observations can be made when comparing to the Forest 
Service Recreation Residence Program:
         <bullet>  While all programs have use limitations, some 
        programs allow greater use (exclusive use of land, permanent 
        residency, no dwelling limitations, etc.), while others are 
        more restrictive. The Forest Service permitted use appears to 
        be among the most restrictive when compared to other programs.
         <bullet>  Some programs use appraisal methods to set annual 
        fees while other programs use alternative methods to achieve 
        the same end. Non-appraisal based user fees are found more 
        often (>70% lots).
         <bullet>  Where non-appraisal based user fees are found, most 
        adjust (increase) fees annually via a price index.
         <bullet>  Where appraisals are used, most programs attempt to 
        use a fair market approach to value the land, then apply a rate 
        factor to arrive at an annual user fee:
             <all>  CUFFA was the only appraisal method found with 
            specific instructions to exclude value adjustments for 
            permit restrictions and limitations placed on land use, 
            thus resulting in higher appraised amounts.
             <all>  Rates for determining annual fees range from 2.5% 
            to 5.5%, placing the Forest Service CUFFA 5% rate at the 
            higher end of the range.
         <bullet>  While a wide range of user fees is found due to 
        variations in the permit/lease terms and location 
        considerations, the average annual user fee is less than $1,000 
        for the 11,000 lots represented by this study. If we limit the 
        analysis to public lands only, the average annual user fee 
        remains less than $1,000, considerably less than average fees 
        under CUFFA or the CFA.
Permit Fee and Program Revenue Summary
    The Cabin Fee Act of 2010 provides a permit fee structure that is 
affordable and predictable for the cabin owner, while ensuring a fair 
return to the U.S. Government. The total program revenue under the CFA 
compares favorably to the total program revenue under CUFFA, not only 
for the base year of 2010, but over a period of time as reflected in 
the ten-year program revenue projection.
    The annual User Fees for 2010 under the CFA range from $500 to 
$4,000, with an overall average of $1,700, over 70% higher than the 
national average user fee for a recreation residence lot with a similar 
use, on lands held for a similar purpose. We offer this as further 
evidence that the CFA fee structure provides more than fair return to 
the U.S. Government and is based on sound market principles.
    Under the CFA fee structure, we expect all 14,000 current permits 
to remain active, keeping the Forest Service Recreation Residence 
Program within reach of the typical American family. By contrast, while 
the CUFFA fees are expected to provide total program revenues similar 
to the CFA fees, it does so with a decline of permit holders to less 
than 12,000 over the next 5-6 years based on the current appraisal 
cycle, thus reducing the typical American family's participation in the 
Recreation Residence Program. This same pattern of permit loss is 
likely to be repeated in future appraisal cycles, eroding the 
Recreation Residence Program still further over time.
    We understand that the number of second appraisals and permit fee 
appeals has risen considerably under the current CUFFA appraisal cycle, 
increasing administrative costs to the Forest Service, while 
potentially reducing services to the public. This increase in Forest 
Service Administrative costs was discussed in the Recreation Residence 
Assessment, Pacific Southwest Region, USDA Forest Service, June 10, 
2009, Updated November 12, 2009. The elimination of on-going appraisals 
will yield substantial administrative cost savings to the Forest 
Service, potentially exceeding $1M annually. The proposed CFA provides 
the opportunity for the Forest Service to redeploy resources resulting 
from these cost savings into more productive delivery of programs and 
services to the public.
    The strength of the Cabin Fee Act of 2010 is its simplicity. The 
simple and straight forward fee structure provides future 
predictability and affordability for the Cabin Program long-term plus 
easy and consistent administrative procedures for both the Forest 
Service and permit holders to follow. The CFA provides a true win-win 
outcome for the cabin owners and the U.S. Forest Service. We thank you 
for your support of this legislation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Forest Service Revenue Projection,

 provided to Senator Feinstein by the Forest Service upon her request 
                             (Summer 2009).

Cabin User Fees
    Question: What is the total annual cost to the Forest Service for 
administering the recreation residence program for each of the past 
five fiscal years, including projected costs for FY 2009? How many FTE 
does the program require? Please provide the basis for how the costs 
were calculated, and separate out direct and indirect costs.
    Answer: The Forest Service accounting system does not distinguish 
the cost of performing recreation residence permit administration from 
the cost of processing and administering recreational permits overall. 
In FY 2009, the total for the administration of recreation special use 
authorizations is estimated at $43.1 million and 338 FTEs. Of that 
planned amount, approximately $6.7 million are indirect costs or about 
15.5 percent. The FY 2009 estimate for administering recreation special 
uses overall is based on regions' capability data. The indirect cost 
estimate is based on FY 2008 actual expenditures and that same indirect 
cost percentage is applied to FY 2009 planned levels.
    Question: What are the real and projected costs to the Forest 
Service for implementing the Cabin User Fee Fairness Act of 2000 for 
the past five fiscal years, including FY 2009? How much is budgeted for 
FY 2010? Please separate direct and indirect costs.
    Answer: The cost of implementing the Cabin User Fee Fairness Act of 
2000 (CUFFA) is reflected in the direct appraisal costs estimated at $7 
million from FY 2007 through FY 2012 and an additional $1.3 million in 
indirect costs. CUFFA did not result in a significant increase in 
direct appraisal costs per appraisal cycle, but by requiring appraisals 
every ten years as opposed to the previous policy of every twenty 
years, CUFFA effectively doubled these costs. Indirectly, CUFFA 
resulted in a significant amount of time and money devoted to the 
writing of regulations, meeting with interested parties, and responding 
to the controversy generated by its implementation. However, there is 
no budget line item for CUFFA implementation, as it is part of overall 
recreation permit program costs.
    Question: Specifically, what are the costs of new appraisals to 
implement CUFFA in Fiscal Years 2007, 2008 and 2009? What appraisal 
costs are budgeted for Fiscal Year 2010? What is the expected total 
cost of an entire appraisal cycle for all forests? Please explain how 
the overall CUFFA implementation costs and the appraisal costs were 
determined.
    Answer: Costs of new appraisal are spread out from FY 2007 through 
FY 2012. Our accounting system does not split out these specific costs, 
but the agency has developed the following estimates based on known 
direct contract costs and review appraiser costs, and then projecting 
forward. An estimated additional $1.3 million over FY 2007--FY 2012 is 
estimated for indirect costs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .epsQuestion: How much revenue did the Federal Government receive 
from the fees paid for recreation residence permits in Fiscal Year 
2008? Under current law and policies, how much revenue is the Federal 
Government projected to receive from fees paid for recreation residence 
permits in each Fiscal Years from FY 2009 to FY 2014?
    Answer: In FY 2008, revenue received was $14.6 million. Assuming 
there is little change in fees from second appraisals and assuming the 
increase indicated from the completed appraisals is representative for 
the whole, the agency projects $40 million in annual fees upon full 
implementation. The last appraisals will be reviewed in FY 2012 and 
will begin a 3-year phase-in in FY 2014. Breaking out the increase over 
the intervening years would indicate the following estimates.

                             FY 2009: $20 million
                             FY 2010: $22 million
                             FY 2011: $24 million
                             FY 2012: $26 million
                             FY 2013: $32 million
                             FY 2014: $35 million
Exhibit 2B

               NFH Sales and Appraisal Survey (Oct. 2009)

                          Breakpoint Analysis

    The ``breakpoint'' is the financial point where cabin owners cannot 
pay or will not pay the permit fee increases that result from the 
current CUFFA appraisal process. We assume sales attempts will occur 
and/or folks will walk away from their cabins. We believe that as fees 
exceed cabin owner breakpoints, some cabins will be sold, but other 
cabins will be added to the list of cabins already unsalable, due to 
their high current fee and the uncertainty in the existing CUFFA 
appraisal process. Permits abandoned will result in lost revenue.
    In the following table the breakpoint average from the survey was 
$3,190, with a range of $200 - $20,000. This is quite a range. Please 
note that some cabin owners are willing and able to pay fees above the 
$5,000 level, but others are unwilling or unable to pay a fee that is 
less than $1,500. Challenges to cabin owners exist across the spectrum. 
All non-zero responses (1263) to the breakpoint survey question are 
included in the following table.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  What year will you reach your ``Breakpoint''?
    The following table suggests that at least 57.7% of cabin owners 
will reach the ``breakpoint'' in this appraisal cycle when fully 
implemented in year 2014 or 2015. This percentage probably overstates 
the reality on the ground because most people will try to ride out the 
process and hang on in hopes of success in changing CUFFA, which is 
already occurring in tracts appraised with high values in this cycle. 
The ``Don't Know'' responses (41.1%) reflect the fact that about 40% of 
all cabins have yet to receive their CUFFA appraisals and cabin owners 
have no idea of the potential outcome. Uncertainty is inherent in this 
process.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Reasons given for reaching their Breakpoint or Walk-away point
     <bullet>  34.7% couldn't afford the fee.
     <bullet>  51.4% indicated the fee exceeded the value of the rights 
and privileges granted.
     <bullet>  13.8% other
    After deeper analysis of the ``other'' comments, we conclude that 
approximately 40% of cabin owners can't afford the fee, while 60% are 
unwilling to pay a fee they believe exceeds the value received.
Comparison of 2010 Estimated Fee to projected Breakpoint
    The following table demonstrates that as fees exceed the $4,000 
level, at least 53.8% of the cabin owners will reach a point where they 
are unable or unwilling to pay the fee, they have reached their 
``Breakpoint''. Plus, if CUFFA fees become fully implemented, these 
data suggests that 35.3% of all cabin owners will reach this point.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Breakpoint Data Summary
     <bullet>  The survey responses indicate that, without changes to 
CUFFA, 35% of cabin owners will reach their breakpoint or walk-away 
point in the current CUFFA appraisal cycle following full 
implementation of CUFFA. The recently passed temporary moratorium on 
fee increases greater than 25% may change this projection for 2010.
     <bullet>  60% indicated the CUFFA fee exceeds the value of the 
rights and privileges granted. This number supports the contention that 
cabins will be very difficult to sell, because a potential buyer would 
likely reach the same conclusion. This is consistent with both 
anecdotal and hard evidence that cabins in some high-fee locations are 
difficult or nearly impossible to sell.
     <bullet>  These comparisons are made with data that is estimated 
and projected. This must be weighed and considered in the analysis. 
However, the data does clearly demonstrate that we have a serious 
problem in the immediate future if we are not successful in changing 
CUFFA. Even if the breakpoint response data is discounted by 50%, the 
implication remains that at least a 15% loss of cabins, in this 
appraisal cycle, is probable. The next section further illustrates this 
point.
Projected Impact on Revenue due to Permit Loss
    The following table illustrates the amount of fee revenue loss that 
occurs when permits are lost. The ``% Lost Permits'' percentage is 
arrived at by reducing the survey results by 20% for each level and 
rounding to the nearest 10%. This adjustment yields a more conservative 
result by attempting to reduce or eliminate any cabin owner bias with 
the survey. The permit loss ranges from 30% for permits at the $4,000-
$5,000 level, increasing to 80% for those fees greater than $10,000. 
Extending the % permits lost by the average fee per range shows the 
revenue loss per level. The projected total revenue loss (38%) is 
approximately twice the number of permits lost (17%), supporting the 2-
to-1 ratio of revenue loss to number of permits lost conclusion. Both 
percentages are rounded down to 15% and 30% for the CUFFA program 
revenue fee projections.

   Conclusion
     <bullet>  The survey ``breakpoint'' data is consistent with the 
cabin owner forums and communication received from individual cabin 
owners from all Forest Service regions. Most express concern they will 
be forced to sell or abandon their cabins when fees reach the $3,000-
$4,000 level, which is supported by the survey results.
     <bullet>  The Forest Service expects the current cycle of field 
appraisals to be completed by 2012. Second appraisals and appeals are 
likely to extend this process by another year or two. For fee increases 
exceeding 100%, a three year phase in of fees suggests full 
implementation of CUFFA fees is not expected until 2016. We expect 
permit loss will occur as higher CUFFA fees are implemented in the same 
phased-in pattern (from 2011 to 2016), reaching the full 15% permit 
loss in 2016 as CUFFA is fully implemented. The attached Ten-Year Total 
Revenue Projection factors this permit loss into the CUFFA net revenue 
projections.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Ms. Maureen Barile, cabin 
owner, Fresno, California. Welcome.

           STATEMENT OF MAUREEN BARILE, CABIN OWNER, 
                       FRESNO, CALIFORNIA

    Ms. Barile. Thank you. Mr. Chairman and members of the 
Subcommittee, my name is Maureen Barile. I live in Fresno, 
California. I am a Recreation Residence permittee. My family 
and I are here today as a representation of multi-generation 
cabin-permittee families.
    My cabin is located at Huntington Lake in eastern Fresno 
County in the Sierra National Forest. The Sierra National 
Forest has a land mass of approximately 1.4 million acres, of 
which more than half is designated wilderness and protected 
activity centers.
    My family has a long history with the cabin program and the 
Forest Service. My late husband Tom's family came to Huntington 
Lake in the early 1950s. Tom, as a young boy, worked alongside 
his father, a printer from the Fresno Bee, in building the 
cabin. The cabin was built of salvaged lumber from an old air 
base in Fresno. It was definitely a labor of love.
    Tom as a young man worked for the Forest Service in tree 
planting, fire, and recreation. In 1965 he was a Huntington 
guard, housed in the old Forest Service guard station, now the 
Billie Creek Museum. My association with the Recreation 
Residence Program began in 1965, when Tom proposed.
    In 1982, Tom and I were able to purchase a tiny cabin in 
disrepair; and thus, our sons, Paul and David, as young teens, 
now worked alongside their dad in building the cabin.
    What do recreation permittees provide to the community and 
the public with their volunteer work and financial support? 
Cabin owners successfully led the Save Kaiser Ridge campaign, 
resulting in the Congressional designation of the Kaiser 
Wilderness. The historic Billie Creek Guard Station Museum 
opened its doors to the public on July 28, 2001. This was a 
partnership of cabin owners with the U.S. Forest Service. The 
museum now has three separate restored historical structures, 
which are a portrait in time of the socio-economic history of 
the Huntington Lake Basin communities.
    Tom and I were involved in this project from the onset. I 
proudly acknowledge my grandson, Thomas, who is with us here 
today, and who, at the age of eight years old, began 
volunteering as a junior docent.
    The museum is open to the public free of charge, and serves 
summer visitors. We were pleased to have Congressman Jim Costa 
visit the museum last year. The Huntington Lake Volunteer Fire 
Department, a 911 first responder, services 150 square miles.
    During peak times there are over 14,000 visitors to the 
forest. There is no cost to the public for these services, 
which are funded and manned by cabin owners. We sponsor 
campfire and historic programs; we partner with the U.S. Forest 
Service in National Public Land Days activities. We write 
grants for forest fire prevention in partnership with the U.S. 
Forest Service. We adopt trails.
    We participated for seven years in the Big Creek Hydropower 
relicensing. As stakeholders, we were able to obtain 
outstanding conditions and funding from the utility for the 
good of the public.
    Tom died suddenly on the last day of his work, after 31 
years as an educator for the Madeira Unified School District. 
As part of the 108th Congressional Record of Monday, June 16, 
2003, it is stated that Thomas E. Barile was honored in the 
House of Representatives for his visionary work as an educator, 
and for his volunteer work for the Fresno County Sheriff's 
Department and the Sierra National Forest.
    Tom volunteered his services using his experience as an 
educator to teach youngsters about the forest, mountains, and 
their unique attributes. His philosophy instilled in his 
children was if you take something out, you must put something 
back.
    He took his role as a steward of the forest seriously, as I 
have. Tom coordinated the Fresno County Sheriff's Department 
Winter Snowmobile Search and Rescue Team, which he served as a 
volunteer commander for 18 years. When asked by the Sheriff's 
Department to take on this responsibility, Tom looked to our 
sons, Paul and David, and fellow cabin families for this 
volunteer team, donating their time, expertise, and equipment 
in the saving of lives.
    I have been left with the responsibility of the 
Recreational Residence permit and the cabin. I am very 
concerned about the future of this program. Fees have 
progressed, have increasingly progressed, and I know many cabin 
owners who are of modest means, who will have to leave their 
cabins if this trend continues.
    I, too, am of modest means, living off of my husband's 
teacher's pension. My sons are both law enforcement officers, 
David a deputy with Fresno County, and a Paul a deputy with 
Merced County. We do not want to be driven out of the forest 
because of the inability to pay escalating fees.
    If I and my fellow cabin owners have to leave the forest, 
it will be a great personal tragedy, as well as a loss to the 
public of those many volunteer cabin families from forests 
throughout the nation, who give so much of their time, efforts, 
talents, and support.
    Fees that drive out the modest American will create a 
change in the national forest use. The Forest Service will have 
created a system that is affordable only to the very wealthy. 
The sense of community and partnerships will end.
    My son, Paul, my grandson, Thomas, and my daughter-in-law, 
Kim, are all here with me today. We thank you for the 
opportunity to address the Committee. We request your support 
of H.R. 4888, and thank you.
    [The prepared statement of Ms. Barile follows:]

     Statement of Maureen E. Barile, A California cabin owner and 
                a member of National Forest Homeowners.

    My name is Maureen Barile. I live in Fresno, California. I am a 
Recreation Residence Permittee. My family and I are here today as 
representation of multi-generation cabin permittee families 
(accompanying statements attached as Exhibit 4A, 4B and 4C).
    My cabin is located at Huntington Lake in Eastern Fresno County in 
the Sierra National Forest. The Sierra National Forest is 
geographically located between Kings Canyon & Sequoia National Parks to 
the south and Yosemite to the north. The Sierra National Forest has a 
land mass of approximately 1.4 million acres of which 750,000 acres is 
designated wilderness and protected activity centers.
    The first cabins permitted at Huntington Lake were in 1916. Many 
early cabins were constructed of salvaged lumber from the Big Creek 
Hydro Project which began in 1911 with the 3 dams at Huntington. Most 
of those cabins remain today in the original families. For the next 40 
years the U.S. Forest Service continued to encourage and invite the 
public to come to the forest and build a recreation residence.
    My family has a long history with the cabin program and the Forest 
Service. My late husband Tom's family came to Huntington Lake in the 
early 1950's when the USFS announced a lottery for lots. They had 
camped at Huntington and loved the Sierras so they entered the lottery. 
My husband, as a young boy, worked alongside his father (a printer for 
the Fresno Bee) in building the cabin. The cabin was built of salvaged 
lumber from an old air base in Fresno. It was definitely a labor of 
love. Materials were hauled up the mountain in a small trailer behind 
the family jeep.
    My husband Tom, as a young man, worked for the Forest Service in 
tree planting, fire and recreation. In 1965 he was the Huntington 
Guard, housed at the old Forest Service guard station (now the Billy 
Creek museum). My association with the Recreation Residence Program 
began in 1965 when Tom proposed.
    In 1982 Tom and I were able to purchase a tiny cabin in disrepair, 
and thus our sons Paul & David as young teens now worked alongside 
their dad in building ``The Cabin''. They mixed the cement on site. All 
materials were hauled up in the family pick up or trailer.
    We like so many recreation residence families have a great love for 
the mountains and are eager to share with family and friends. Cabins 
are always buzzing with activity. While having fun, folks are always 
learning about the forest and how to give back and be good stewards.
    What do Recreation Permittees provide to the community and the 
public with their volunteer work and financial support?
    Recreation residence permittees led the ``Save Kaiser Ridge'' 
campaign. This volunteer work resulted in the Congressional Designation 
of the Kaiser Wilderness.
    *In 1989 we learned the Forest Service intended to demolish the 
Huntington Guard Station. A group of cabin owners initiated a project 
to restore the guard station for use as a museum. It was a 12 year 
process. We had to appeal the original decision to demolish the 
station, the USFS wanted new science, environmental studies had to be 
done, historic evaluations were required, and hours of research were 
needed. The buildings were restored, and in 2001 we were issued our 
permit. The ``Historic'' Billy Creek Guard Station Museum opened its 
doors to the public on July 28, 2001. This was and continues to be a 
great example of volunteers working in partnership with the U.S. Forest 
Service.
    The museum now has three separate restored historical structures 
which are a portrait in time of the socio-economic history of the 
Huntington Lake Basin communities which encapsulate man's historic 
contributions to the area along with the building of the Big Creek 
Hydro-system and recreation. Tom and I were involved in this project 
from the onset. I proudly acknowledge my grandson Thomas, who is with 
us here today and who at the age of 8 years old began volunteering as a 
junior docent. My grandsons Kristjan 14 and Matthew 9 also volunteer. 
The museum is open to the public free of charge and serves summer 
visitors. Most visitors are campers, day use visitors and other members 
of the general public. Congressman Jim Costa came and visited the 
museum last year.
    *In 1999 Recreation Residence Permittees recognized the need for a 
trained and well equipped volunteer fire dept. The Huntington Lake 
Volunteer Fire Dept. (HLVD) in ten years has become a 911 first 
responder that services 150 square miles. The volunteer firemen & women 
are cabin, resort and camp permittees. During peak times there are over 
14,000 visitors to the forest whom they are ready to serve. There is no 
cost to the public for these services rendered. The Volunteer Fire 
Department operates from community donations and grants.
    *We co-sponsor campfire programs at the museum free of charge.*We 
provide historic programs for the public at no charge
    *We partner with the U.S. Forest Service in National Public Lands 
Day activities.
    *We write grants for forest fire prevention working in partnership 
with the U.S. Forest Service.
    *We save and preserve historic buildings, i.e. USFS Huntington 
Guard Station, USFS Kaiser Diggings work center, and the Pine Logging 
Camp.
    *We serve as winter trail patrollers.
    *We write grants in partnership with the USFS to clear trails, 
construct bridges, develop snowmobile trails and ski trails.
    *We Protect and preserve the history of the World War II B-24 
bomber that crashed on December 6, 1943 into Huntington Lake.
    *Family heirlooms are donated to the museum.
    *Old photo collections are donated to the museum.
    *We participated for 7 years in the Big Creek Hydro Power 
Relicensing. As stakeholders we were able to obtain outstanding 
conditions and funding from the utility for the good of the public.
    Tom died suddenly on the last day of his work after 31 years as an 
educator for the Madera Unified School District. As part of the 108th 
Congressional Record of Monday, June 16, 2003 it is stated that Thomas 
C. Barile was honored in the House of Representatives for his visionary 
work as an educator and for his volunteer work to the Fresno County's 
Sheriff's Dept. and the Sierra National Forest.
    For most of Tom's adult life he volunteered his services using his 
experience as an educator to teach youngsters about the forests, 
mountains and their unique attributes. His philosophy, and one that he 
instilled in his children, was ``if you take something out you must put 
something back''. He took his role as a Steward of the Forest 
seriously, as have I. Among the many volunteer projects in which Tom 
participated was the coordination of the Fresno County Sheriff's Dept. 
winter snowmobile Search and Rescue team which he served as a volunteer 
Commander for 18 years and also served on the Mountaineering Team. When 
asked by the Sheriff's Department to take on this responsibility Tom 
looked to our sons, Paul & David and fellow cabin families for this 
volunteer team. A highly skilled team of volunteers donating, their 
time, expertise and equipment came together and assist in the saving of 
many lives.
    I have been left with the responsibility for the recreational 
residence permit and the cabin. I am very concerned about the future of 
this Program. Fees have progressively increased and I know many cabin 
owners who are of modest means who will have to leave their cabins if 
this trend continues. I too am of modest means living off of my 
husband's teacher's pension. My sons are both law enforcement officers, 
David a deputy with Fresno County and Paul a deputy with Merced County. 
We do not want to be driven out of the forest because of the inability 
to pay escalating fees. If I and my fellow cabin owners have to leave 
the forest it will be a great personal tragedy as well as a loss to the 
public of those many volunteer cabin families from forests throughout 
the nation who give so much of their time, efforts, talents and 
support.
    Fees that drive out the modest American will create a change in 
National Forest use. The U.S. Forest Service will have created a system 
that is affordable only to the very wealthy. The sense of community and 
partnerships will end.
    My son Paul, grandson Thomas and daughter-in-law Kim are here with 
me today. We thank you for the opportunity to address the committee. It 
is my hope and belief that Congress will recognize the threat posed to 
the Recreation Residence Program and not let unreasonable fees force us 
out of our cabins. We request your support of H.R. 4888.
                                 ______
                                 
                               Exhibit 4A
Statement of Diane Dreher, Eau Claire, Wisconsin
    Our family cabin is located in Chequamegan National Forest in 
Wisconsin. Many would consider it a ``rag tag'' cabin but it is a 
family treasure to my family. I am Diane Dreher and our cabin built in 
1948 has been in the family since my uncle acquired it in 1996. It is a 
rustic cabin, 750 square feet including one small bedroom and kitchen. 
Our water comes from a primitive water system and our heat from a 
propane heater and fireplace. When my uncle died my family obtained the 
permit to make certain that it was maintained and the family could 
continue to use it.
    Our use of the cabin is confined to the summer months due to 
extreme weather in the winter and limits on year round use imposed by 
our permit. My children, grandchildren and I use the cabin in the 
summer months. My 92 year old mother continues to regularly visit the 
cabin in the summer and guests are welcome despite the small size of 
the living area.
    I am a divorcee, living on social security, limited investments and 
income from a part time job at Barnes and Noble. I was working 20 hours 
a week but I have just been reduced to 5 hours a week due to hard 
economic times. We struggled to pay the yearly use fees when they were 
approximately $3000 per year. They now are $7000 a year. We cannot 
afford such high fees and will be forced to abandon the cabin. It is 
unlikely that anyone would purchase this cabin considering the high 
fees and many restrictions on its use especially when other privately 
owned residences free of many government regulations are available.
    It will be sad to leave this cabin. My children and grandchildren 
have grown up in the summer time learning about the outdoors, the 
quality of nature and all the forest has to offer, from wildflowers to 
the infrequent bears that visit us. The grandchildren have learned to 
swim in the local lake diving off a simple portable dock we install 
each summer.
    I cannot help but believe that the appraised value of our small, 
rustic cabin has been influenced by many privately owned cabins and 
residences in the area which are simply not in the same league. In 
fact, our cabin and others in our tract serve as a buffer between 
larger cabins and the dense forest and we believe that we are 
responsible stewards of that forest.
    It is the hope of the Dreher family and our fellow cabin owners 
that Congress will act swiftly to reform the fee system and provide for 
fair fees before it is too late for us.
Diane Dreher
                                 ______
                                 
                               Exhibit 4B
Statement of Cindy Sims Langley. Clovis, California
    My name is Cindy Sims Langley. My family has owned a cabin for over 
70 years at in the Sequoia National Forest at Hume Lake in California. 
The cabin was built in 1926. It was known as the ``hunter's shack'' 
when my grandmother acquired it in 1938. My grandmother, Dorothy Seele, 
was one of the first cabin owners on the recreational permit side of 
the side of the lake, the other side being occupied by a public Forest 
Service camp.
    My grandmother was a single mother from Southern California. All 
her life she made great sacrifices first to acquire the cabin then to 
maintain the cabin for her family. She worked as waitress in the Los 
Angeles area arranging to hire a woman and her son to stay at the cabin 
and care for her daughters there all summer long while she remained in 
the hot valley working. This way Grandma had peace of mind as she 
worked long hours to provide for her family knowing her children were 
safe at the cabin enjoying the forest.
    After working a full day my grandmother would make the arduous trip 
to the cabin. This was a 6 hour trip which she would drive alone, at 
night, arriving around 11 PM Friday evening. She would wash her uniform 
and go to bed anticipating Saturday with the girls fishing, exploring, 
hiking and swimming before turning around and heading back to Los 
Angeles to work.
    Every spare cent grandma had she spent to protect that cabin for 
her family. As children, my mother and aunt spent summers with other 
cabin owners' children playing on and around Hume Lake. They also spent 
their evenings at the Forest Service camp singing with the forest 
rangers and roasting marshmallows and drinking hot chocolate-they were 
having a grand time. When the (then) new Christian camp was built at 
Hume Lake they also participated in the fun with the residents.. It was 
a wonderful life. Over the years our cabin became the center of our 
life away from home. We learned the mysteries and value of life in the 
forest. My mother met my father frogging on Hume Lake and my uncle met 
and married the head Ranger Paul Spivey's daughter Kathy Spivey. My 
father spent summers splitting fence posts my grandfather had logged. 
Everyone joined in to maintain our cabin in the woods.
    Eventually grandchildren came along and we grew up and roamed these 
mountains lakes and streams as did our cousins from all sides of the 
family. We all enjoyed the cabin life and sometimes there would be 14 
or more sleeping on the floor and deck just to be together. As we grew 
we married and had children of our own who have also learned to swim 
fish and roam the mountains around Hume Lake. The cabin is only 900 
square feet with a sleeping loft. It's cozy; however we have always 
found room for the expanded family to enjoy the cabin experience. We 
have had over 30 years of family reunions at the cabin--that's a lot of 
togetherness! My 74 year old father continues to enjoy the cabin. I am 
not embarrassed to say that all three of my children were conceived at 
the cabin. The cabin means so much to my own family that we moved to 
Clovis, California to be several hours closer to the cabin.
    My grandmother understood the importance of the cabin to her family 
and for over 70 years provided a wonderful place for all of us to 
gather and stay close as a family. When she died she insisted the cabin 
be left in trust to her grandchildren and great grandchildren to keep 
the tradition alive. Unfortunately, the threat of substantial Forest 
Service permit fee increases threatens our ability to continue to keep 
our cherished cabin.
    We are not a wealthy family. I am disabled but receive no source of 
disability pension; my husband is a plumber at the local hospital, my 
oldest son a firefighter and with budget cuts his job is in jeopardy, 
the middle son works for delx films, which may sound like a high paying 
job but when you expect to get laid off 3 to 6 months out of each year 
it is not. Our youngest son is in college-need I say more? We are your 
average middle class family and this cabin means everything to us. Our 
``wealth'' is found in memories and our family life at the cabin is an 
integral part of that. I am hopeful that our children and grandchildren 
will be able to continue to fulfill my grandmother's dream. We hear 
from fellow cabin owners and the Forest Service that yearly cabin 
permit fees under an appraisal system will likely rise by thousands of 
dollars. This will put the fee beyond our means. We urge Congress to 
change the permit fee system to assure a more affordable one for 
families such as ours.
Cindy Sims Langley
                                 ______
                                 
                               Exhibit 4C
Statement of Jo Musser-Kraus Tucson, Arizona
    My name is Jo Musser-Krauss and I am a resident of Tucson, Arizona. 
I have a cabin subject to a U.S. Forest Service recreational residence 
special use permit. My cabin is a ``piece of heaven'' located in Willow 
Canyon in the Coronado National Forest in Arizona. I consider it so not 
because it is luxurious but because of its importance to me, my family, 
friends and community, as I will explain. I am submitting this 
statement because I am very concerned I am going to have to give up the 
cabin due to the likelihood of increased yearly fees.
    I am 87 years old, a widow and a retired educator. The lot for my 
cabin was originally acquired by its first owner shortly after World 
War II in a lottery conducted by the government. My husband and I 
purchased the cabin in 1973. The cabin is one room, approximately 360 
square feet, plus a small bathroom, the only addition we have been 
permitted to make. Our septic system is an outhouse with a vault, we 
obtain water from rainfall or transport it in ourselves and our heat is 
from a fireplace. The cabin is rustic and we access it over a 1 1/2 
mile rough road which we have to maintain. Provisions are hauled in 
from the city. The Forest Service limits the days each year we can use 
our cabin. We use our cabin for 4 months, May through August. My 
husband and I attempted to use it one winter, a difficult experience. 
It is too isolated for winter use at my age, even if it were permitted.
    Mine is in every sense a family cabin available to my 3 daughters, 
5 grand children and 2 great grand children. It is also a community 
meeting place. We have approximately 150 visitors to my cabin each 
year. Church groups regularly meet there and the church youth group 
helps me clear the land around the cabin to protect from wildfires. In 
fact, we have had two recent wildfires fires in the vicinity which 
destroyed several cabins. Mine survived in large part due to this 
effort. I am a docent at the Arizona-Sonora Desert Museum in Tucson and 
the docents regularly meet at my cabin over the summer months. ``Jo's'' 
cabin is the site of the yearly 4th of July party for my fellow cabin 
owners and guests.
    If I have to let my cabin go it will not only be a loss to me but 
to the many friends and groups who use it as well. The cabin has a 
special attachment for me. Located at 7000 feet in the Catalina 
Mountains it is a sanctuary from the heat of Tucson. Much of the work 
on it we do ourselves and its style is unique. For example, after we 
acquired the cabin my husband and I paneled the inside with scrap wood 
salvaged from wooden packing boxes. I have attached some photos of the 
cabin.
    I live on a pension and pay the current fee, personal and property 
taxes myself. We hear that the permit fees will soon be approximately 
$4000 a year which will be about 10% of my income. I will be unable to 
afford such fees and will have to let the cabin go.
    I am no stranger to the difficulties encountered in changing the 
law and implementing such changes. In the mid 1970's I attended a 
meeting in California with 2 local Board members, including then member 
and now Congressman Raul Grijalva; to address school desegregation. 
After that meeting we came up with a workable plan implemented in the 
Tucson Unified School District which included a magnet school. I was 
appointed Principal of Borton Primary Magnet School, one of the 9 
schools in the desegregation plan. I know that things can be made to 
work if people work hard to make them work. I hope that Congress will 
make the effort to make certain that the yearly fees for our cabins are 
kept reasonable and affordable.
February,20, 2010
Jo Musser-Krauss, 2910 E. Malvern St., Tucson, AZ 85716
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Ms. Barile. You are very welcome.
    Mr. Grijalva. Just some quick questions. Mr. Anderson, 
since the implementation of CUFFA 10 years ago--and we have 
heard stories about what the fee increase is potentially doing, 
and the last panelist articulated that, as well--how many, what 
percentage of abandonments or tearing-down of cabins have you 
seen? Is there a percentage attached to it?
    Mr. Anderson. There hasn't been any significant abandonment 
yet, and that is because the fees under the CUFFA system were 
so delayed that they have only recently been implemented within 
the last two years. So we haven't quite yet seen--well, we have 
seen attempts to sell, which have been unsuccessful. But we 
haven't seen abandonment yet.
    Many of those fees are just now becoming applicable. And I 
can tell you what I have seen and heard. And that is that I get 
calls, both I and the executive director get calls from 
members, saying I just got my new CUFFA fee bill that just came 
in last year or this year. I can't afford it, what do I do? I 
can't sell it, what do I do?
    And I can tell you that the level at which I started 
getting those calls is not at the $6,000 fee level you heard 
Mr. Holtrop refer to. People start calling in when they get 
these new CUFFA appraisals now and say $3,000, $4,000, that is 
my limit, I am out of here. Help me, I can't stay. What should 
I do?
    So it is just now starting to happen, if you will.
    Mr. Grijalva. Thank you. Mr. Almy, we have heard--well, 
first of all, the cabin owners, it appears from the testimony 
today, have been quite involved in creating or helping shape 
the legislation that we are talking about today.
    For background, how involved were cabin owners in the 
drafting in 2000 of the CUFFA legislation?
    Mr. Almy. Thank you for that question. The short answer is 
not nearly as involved. One of the things that has happened in 
creating H.R. 4888 is a much more inclusive process, not just 
from the perspective of doing surveys and getting feedback from 
cabin owners, but more importantly, the creation of a group 
called Coalition II that was a broad amalgam of national forest 
homeowners in the lead, and a number of state organizations.
    Mr. Grijalva. OK. Is it the potential, is it the high fees 
or the potential for high fees that is--and this extreme, or is 
it this extremely difficult housing market that we are all 
dealing with, particularly for second homes? Which chicken and 
which egg?
    Mr. Almy. Mr. Chairman, I frankly think it is the former, 
not the latter. Certainly the latter, of the condition of the 
residential market and real estate in general, has exacerbated 
the problem.
    But the issues that brought us to this legislation have 
been with us for 40 years. And so the concern about high fees 
is one element of it. But the other element that is equally as 
important is the uncertainty of the trajectory of those fees.
    Mr. Grijalva. Mr. Bailey, we have heard that fees are 
currently based on appraisals from the seventies to the 2000s. 
And so would your organization be opposed to allowing the 
Forest Service to complete the round of appraisals that are 
going on right now under CUFFA, so that we have determinations 
of where to place these cabins in the tiers? Or do we rely on, 
in some instance, of advantage or disadvantage from a seventies 
appraisal? And other instances, advantages or disadvantages for 
that cabin owner on a 2000 appraisal?
    Mr. Bailey. Mr. Chairman, I think that is a fair question 
to ask. And we agree with the Forest Service that we need to 
have a dataset upon which we make tier assignments that is 
uniform and complete.
    And the current appraisals, ranging from the late seventies 
to the CUFFA appraisals, is what is establishing fees on the 
ground today. And we agree that that is not how we want to 
assign the various permits to tiers.
    Mr. Grijalva. So you are all for finishing, I think Mr. 
Holtrop identified 8,000 done, and a number to go to reach 14. 
Are you open to the completion of that process in order to have 
a base line to be able to deal with the legislation if it were 
to become law?
    Mr. Bailey. The completion of the current appraisal cycle 
is something that we would support, but we would certainly want 
to work on what kind of transitional mechanism would be in 
place, you know, to help facilitate that. You know, how do we 
deal with individual fees today with those permits that are yet 
to face their appraisal process.
    Mr. Grijalva. If I may, for our last panelist, the same 
question. Finishing the appraisal process that is ongoing now, 
if H.R. 4888 were to become law, finishing that appraisal 
process under CUFFA so that we would have that base line. As an 
owner and based on your testimony, how do you feel about that?
    Mr. Bailey. Recently, within the last three weeks, I 
received my new appraisal. It was my understanding that that 
was going to be my new fee, what I am looking at for the future 
with the tiers, I already found where I would fall within that.
    Mr. Grijalva. OK, thank you very much. Mr. Bishop.
    Mr. Bishop. I am going to yield to Ms. Lummis first.
    Mr. Grijalva. Ms. Lummis.
    Ms. Lummis. Thank you kindly, Mr. Chairman and Mr. Bishop. 
First question for Mr. Bailey.
    If a cabin is abandoned, is there a penalty to the owner?
    Mr. Bailey. There is not a formal penalty, but there is a 
penalty, in fact, that they incur the cost to remove that 
cabin. And in some areas, the county imposes hazardous waste 
disposal standards that really significantly increase the cost 
of doing that.
    And it has been estimated that some cabins would cost 
between $50,000 and $60,000 to remove, you know, on top of the 
rest of the circumstances.
    Ms. Lummis. Thank you. And a question for Mr. Almy. It 
sounded to me like the appraisal process is very complicated. 
And when Mr. Bailey went through and explained this process, it 
sounds so much more simple.
    I guess I am getting to that age in life where simple is 
better. So this bill just appeals to me tremendously, just 
because of its simplicity.
    Can you explain what you know about the Forest Service 
policy regarding the type and location of lots an appraiser can 
use as a comparable lot in the appraisal process under CUFFA?
    Mr. Almy. Certainly. Let me first say that one of the 
underlying principles here really is simplicity and 
predictability, and I think that has been a theme that we have 
heard all morning.
    But also, in the interest of full disclosure, I have to 
tell you that I am a licensed appraiser, and I have been 
practicing in real estate for 25 years. So I think I know 
whereof I speak on this issue.
    The short answer is that you go where you need to go to 
find comparables that are acceptable. I think Mr. Holtrop was 
correct in that your first and best choice is a comparable lot 
that is unimproved, has similar utility infrastructure, similar 
access, that is in private land. Those are few and far between 
because of the nature of this program.
    As a result of that, you have to make compromises. You have 
to go to other locations. You have to sometimes find properties 
that are improved, and figure out how to extract the value of 
the improvement. So it is very complicated. It is very 
subjective. And one of the difficulties with this whole 
appraisal system is that there aren't normal metrics, like 
there is in income property, to figure out what the value 
really should be. It is a perception, almost.
    So it is a complicated process. It is a subjective process. 
And it is the very reason that we conclude that the appraisal 
process, as a system, is inappropriate for setting fees.
    Ms. Lummis. And just one more comment, Mr. Chairman. I 
thank you all for your testimony. I am pleased that this bill 
provides the type of simplicity and predictability, and that 
the cabin owners have helped work on it.
    It sounds like CUFFA was--I am a freshman, so that is why I 
am making all these assumptions. It sounds like CUFFA was well-
intentioned, and then, in its implementation, just became more 
unruly and complicated and unpredictable for people than is 
appropriate under the circumstances.
    So I just want to applaud the author of the bill, the cabin 
owners who helped work on it, and comment that I get a lot of 
cabin owners' comments as well, from my home state of Wyoming, 
about the massive impacts of these new fees. And that we, as 
Members of Congress, have an opportunity to correct a situation 
that, you know, the Forest Service is honestly attempting to 
utilize, but that, in practice, has not worked very well.
    So thank you all for your testimony and your hard work on 
this issue. And thank you very much, Mr. Chairman, Mr. Bishop, 
Mr. Hastings.
    Mr. Grijalva. They are going to call us to vote in a little 
while. And if at all possible, I would like to adjourn when 
they call us to vote. But Mr. Costa, questions?
    Mr. Costa. Yes. That works for me, Mr. Chairman. Before I 
ask some of the cabin owners some questions, I want to go over 
I think for the Committee's purposes, Congressman Hastings and 
I had a conversation when we had a separate meeting as it 
relates to how this bill is drafted and its jurisdiction. 
Because there are some issues that affect the USDA and 
overlapping with the Ag Committee.
    And I don't think, if we are able to work this through, as 
I hope we are, that we want to have a situation where we have 
CUFFA in a narrow sense covering a thousand cabins or whatever, 
and then have a separate program under this tier system.
    So it seems to me, Mr. Chairman, that we ought to, I think 
at the time Congressman Hastings indicated he was amenable 
toward working out this overlap and this jurisdictional issue. 
And we actually had two staff members from the Ag Committee sit 
in on that earlier meeting.
    So I don't know, as a colloquy or a way of, if Congressman 
Hastings should care to respond, and the Chairman cares to, 
too, so that we have an understanding on how we go through 
this?
    Mr. Hastings. Will the gentleman yield?
    Mr. Costa. Yes, I will yield. As long as I have time to ask 
my three questions.
    Mr. Hastings. This issue, you know, really came to a head. 
And as you know, there is essentially a one-year moratorium on 
raising the fees. And that was done----
    Mr. Costa. Right.
    Mr. Hastings.--and that could be renewed. I hope that we 
don't have to go through that process.
    So when we drafted this bill, we drafted it, honestly, 
purposely very narrowly, so that we would have jurisdiction on 
that, and could have a hearing and facilitate the hearing.
    Now, I recognize that there has to be a process by which we 
go through. And I am certainly open to that, and I made that 
observation in my opening remarks.
    But as I mentioned, this was done on purpose so we could 
have a hearing.
    Mr. Costa. No, I understand that. And I spoke with Chairman 
Peterson, and he is aware of the issue.
    Mr. Hastings. Right.
    Mr. Costa. And I think he is amenable to working with the 
Chairman of the Subcommittee here on how we can work through 
that, so that we don't have a dual system.
    Mr. Hastings. Yes. The intent was not to exclude that. The 
intent was to try to get this on the front burner from a policy 
standpoint so that we can address it.
    Mr. Costa. Very good.
    Mr. Hastings. Thank the gentleman.
    Mr. Costa. Let me get to my questions here quickly. Mr. 
Anderson, you know that this measure that we hope will resolve 
the issue of, there was a sense, I guess, that cabin owners 
thought that CUFFA would solve the problem. But it didn't.
    Quickly, where do you think this is different, and that it 
will, in fact, resolve the issue?
    Mr. Anderson. Well, it is easy to determine the fee. There 
is very little controversy. Once we have reached agreement on 
this and the legislation hopefully is passed, there is really 
no difficulty in determining the fee.
    The cost I think should be significantly less for the 
Forest Service. The costs, we will no longer have costs of 
appraisals. If the user fee levels or tiers are kept at a 
reasonable level, it will be more affordable.
    Mr. Costa. And people will understand it, and there will be 
certainty. The gentleman next to you there, both Mr. Almy, who 
has experience in real estate, as you have stated, Mr. Bailey. 
Cabin owners have indicated that many owners would consider 
abandoning their cabins at a higher-than-$4,000 fee.
    What percentage of loss do you think there would be if we 
had the top tier in excess of $6,000? Care to comment quickly?
    Mr. Bailey. Yes, I would like to respond to that. Our 
survey in the fall, Mr. Congressman, looked at the financial 
break point. And on average, that number is around $4,000.
    What does that mean? That means that is the point where a 
cabin owner looks at their fee and says, you know, I can't 
afford this, or this does not value the--this is more than what 
I get in value for the use. Some are higher than that, and some 
are lower certainly, and would pay more.
    Mr. Costa. My time is expiring.
    Mr. Bailey. I am sorry.
    Mr. Costa. Could you provide that survey to the 
Subcommittee?
    Mr. Bailey. Absolutely. It is part of the documents we have 
submitted, sir.
    Mr. Costa. OK, very good. Finally, Ms. Barile, I think you 
did a wonderful job of explaining historically how your family 
and others in the Huntington Lake area have done such a 
tremendous job in maintaining that really special place in the 
High Sierra.
    The CUFFA fee is only one of the fees the cabin owners pay 
to their cabins, part of the cabins. There are additional fees 
in localities for various services and costs of maintenance. 
Have you added them up in your own individual case, quickly?
    Ms. Barile. Yes. Garbage is a huge issue. Just for those 
few months that we are there, our garbage service is $154. We 
have to pay additional fees because of bear-proofing bins, and 
every time a garbage truck driver gets out of his truck we have 
to pay for those additional costs for him unlocking a bear-
proof bin.
    The insurance has almost doubled within probably the last 
four years, because of being in a forest and forest fire 
conditions. Our insurance is extremely difficult to get in the 
mountain areas. One person who recently bought a cabin in my 
tract called me saying where can I get insurance, because she 
could not find any insurance. She finally was able to go to a 
very, very limited type of coverage for her cabin.
    Another thing that I am really, really concerned about is 
how the continued increasing fees are going to affect the 
taxes. We are taxed on land that we do not own. When I get a 
tax bill from Fresno County, they have it broken down between 
my lot, and between my cabin. And on my tax bill for the 
county, for instance, during CUFFA, it was $30,000, my lot was 
appraised for $30,000. So then the county gave me a bill of, I 
pay $1,115 in taxes. Now my appraisal has gone up to $50,000. 
So I am just terrified what is going to happen when, in 2012, 
what is going to happen with my tax bill.
    Then, of course, you have all of your other items that you 
have in having a cabin. And there are a lot of restrictions. 
You have to make sure you keep everything really clear. My 
major concern with this increase is the taxes. I don't know how 
I am going to afford it.
    Mr. Costa. And you want to keep it for your grandchildren 
and for other generations.
    Ms. Barile. I want to keep it for my grandchildren, for my 
children.
    Mr. Grijalva. Well, we need to wrap this up because we are 
way over time.
    Mr. Costa. Thank you, Mr. Chairman.
    Mr. Grijalva. You are welcome. Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. And I apologize for 
having missed your testimony, but I want to thank all of you. 
And Pete, good seeing you. I want to thank all of you for your 
input on this bill.
    Clearly, by the testimony we heard today and questions up 
here on the assessment, the challenge we are going to face as 
we move forward is going to be the benchmark that we can all 
agree on to set and establish those tiers. That is going to be 
the challenge that we are going to face. I think we all know 
that.
    But I am very pleased by the tone of this hearing. I think 
that we can hopefully find a solution on that. But I want to 
thank you for your input, and we will continue to seek your 
input as we move forward.
    But that is going to be the hardest part, we know that. 
Once we can get over that, then I think that this legislation 
hopefully can move very quickly, and we will have some long-
term certainty. And everybody is suggesting that is where we 
want to be.
    So thank you again. Good seeing you, too, Pete. I yield 
back.
    Mr. Grijalva. Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. I simply wanted to 
emphasize the written testimony that tells us of realtors in 
Wyoming, for example, reporting that no cabins sold since 2004. 
And the three cabin owners who have tried to sell found that 
``when buyers find out how expensive these are or may be, that 
they laugh and then go away.''
    I think that speaks volumes of the unrealistic nature of 
the appraisal process. That is the market telling us that those 
appraisals have literally priced these properties right out of 
the market.
    I would also like to emphasize, you know, there are 
property rights involved in the ownership of the cabins 
themselves. And property rights include a certain stability and 
predictability of the individual being able to hold onto that 
property. That can't be done when appraisals are going vastly 
above market rates.
    I think that that emphasizes just how important this 
legislation is. And again, I want to compliment the author on 
the bill.
    Mr. Grijalva. Thank you, sir. Mr. Bishop.
    Mr. Bishop. Let me also thank you for coming here and 
testifying. I appreciate the testimony. It is very clear, from 
everything we have heard, that the status quo is broken, and 
that we need to do something to fix it very radically and very 
carefully.
    I had a series of questions. I will just, I will forgo all 
of those in the interest of time here. Except, ma'am, you said 
that your grandson was the museum docent at the age of eight? 
And he is here?
    Ms. Barile. Yes, and in fact he is here.
    Mr. Bishop. Have him stand up. Congratulations for being 
precocious and intelligent at the same time.
    [Laughter.]
    Mr. Bishop. Ma'am, thank you. Thank you all for being here.
    Ms. Barile. You are very welcome.
    Mr. Grijalva. Thank you. And let me join with Mr. Bishop in 
thanking all the panelists. And I think Mr. Hastings put the 
challenge, the issues that need to be resolved to move this 
legislation. I agree that certainty would be very important for 
the owners. And we will be glad to work with Mr. Hastings on 
this as we go forward, to deal about where that base line data 
is going to be, and when it kicks in.
    So I appreciate it, and thank you very much.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
